<html>
<title> - OPEN HEARING ON WORLDWIDE THREATS</title>
<body><pre>[Senate Hearing 115-205]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-205
 
                   OPEN HEARING ON WORLDWIDE THREATS

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, MAY 11, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
      
      
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
  
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            _________ 
 
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-888                 WASHINGTON : 2018      
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
       
        
        
        
        
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                   
                                CONTENTS

                              ----------                              

                              MAY 11, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     3

                                WITNESS

Dan Coats, Director of National Intelligence; Accompanied by: 
  Mike Pompeo, Director of the Central Intelligence Agency; Lt. 
  Gen. Vincent Stewart, Director of the Defense Intelligence 
  Agency; Andrew McCabe, Acting Director of the Federal Bureau of 
  Investigation; Admiral Michael Rogers, Director of the National 
  Security Agency; and Robert Cardillo, Director of the National 
  Geospatial-Intelligence Agency.................................     6
    Opening statement............................................    12

                         SUPPLEMENTAL MATERIAL

1983 CIA Report, ``Soviet Strategy To Derail U.S. INF 
  Deployment,'' declassified in 1999 submitted by Senator Cotton.    68
Responses of Andrew McCabe to Questions for the Record...........    96


                   OPEN HEARING ON WORLDWIDE THREATS

                              ----------                              


                         THURSDAY, MAY 11, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Warner, Risch, 
Rubio, Collins, Blunt, Lankford, Cotton, Cornyn, Feinstein, 
Wyden, Heinrich, King, Manchin, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call the hearing to order. I'd 
like to welcome our witnesses today: Director of National 
Intelligence Dan Coats--Dan, it's good to see our former 
colleague here--Director of the Central Intelligence Agency 
Mike Pompeo--good to see you, Mike--Director of Defense 
Intelligence General Vince Stewart; Director of National 
Security Agency, Admiral Mike Rogers; Director of Geospatial-
Intelligence Agency, Robert Cardillo; and Acting Director of 
the Federal Bureau of Investigation, Andrew McCabe. I thank all 
of you for being here this morning, especially to you, Director 
McCabe, for filling in on such short notice.
    Since 1995, this committee has met in an open forum to hear 
about and discuss the security threats facing the United States 
of America. I understand that many people tuned in today are 
hopeful we'll focus solely on the Russian investigation of 
their involvement in our elections. Let me disappoint everybody 
up front: While the committee certainly views Russian 
intervention in our elections as a significant threat, the 
purpose of today's hearing is to review and highlight to the 
extent possible the range of threats that we face as a Nation.
    The national security threat picture has evolved 
significantly since 1995. What used to be a collection of 
mostly physical and state-based national security concerns has 
been replaced by something altogether different. Today our 
traditional focus on countries like North Korea, Russia, and 
Iran is complicated by new challenges like strategic threats 
posed by non-state actors in the cyber arena and the danger of 
transnational terrorists who can use the internet to inspire 
violence and fear in the homeland, all without leaving their 
safe havens in the Middle East.
    What has not changed, however, is the tireless dedication 
and patriotism of the women and men who make up the United 
States intelligence community, the very people represented by 
our witnesses this morning.
    One of the many reasons I find so much value in this 
hearing is that it provides the American public with some 
insight into the threats facing our country. But it also lets 
people know what's being done in their behalf to reduce those 
threats. I encourage all the witnesses today to not only 
address the threats to our Nation, but to talk about what their 
organizations are doing to help secure this country, to the 
degree they can in an unclassified setting.
    Director Coats, your written statement for the record 
represents the collective insight of the entire intelligence 
community. It is a lengthy and detailed account of what this 
country is facing. It is also evidence of why the substantial 
resources and investments this committee authorizes are in fact 
necessary.
    From the human tragedy of the refugee crisis in the Middle 
East to the risk that territorial ambitions will set off a 
regional conflict in the South China Sea, it's a complicated 
and challenging world. Director Pompeo, the Korean Peninsula is 
a point of particular concern to me and to many on this 
committee. I'd like your insights into what is behind North 
Korea's unprecedented level of nuclear and missile testing and 
how close they are to holding the U.S. mainland at risk of a 
nuclear attack. I'd also value your sense of how Tuesday's 
election of a new President in South Korea is going to impact 
things for us on that peninsula.
    General Stewart, I'm sure you're aware of the reinvigorated 
policy discussions on Afghanistan. While we all respect that 
you can't offer your own recommendations on what that policy 
should be, I would very much value your assessments of the 
situation in Afghanistan today, including the state of 
governance in Kabul, the sustainability and proficiency of the 
Afghan National Security Forces, and whether Taliban 
reconciliation is a realistic objective. If the U.S. is ramping 
up in Afghanistan, we need to know the IC's views on what we're 
getting into.
    I also hope you'll share your assessments of the 
battlefield in Iraq and in Syria with us this morning. Your 
insights into conditions on the ground, including ongoing 
operations to dislodge ISIS from Mosul, and sustainability of 
the Mosul Dam would be of great value to the members of this 
committee and to the public.
    Admiral Rogers, I've made a couple references to cyber 
already and that's for good reason. Of the many difficult 
challenges we're going to discuss this morning, nothing worries 
me more than the threat of a well-planned, well-executed 
widescale attack on the computer networks and systems that make 
America work. From banking and health care to military and 
critical infrastructure, the functionality of our modern 
society is dependent on computers. When the first line of the 
DNI's statement reads, and I quote, ``Nearly all information, 
communications networks, and systems will be at risk for 
years,'' unquote, that alarms me. Admiral Rogers, I look 
forward to hearing from you on this line of assessments.
    Director Cardillo, as head of the NGA you sit at the nexus 
of innovation and data collection and analysis. Given the 
complexity of the intelligence questions the IC is being 
confronted with and the global nature of our national security 
threats that this country faces, expectations of the NGA are 
high. We know the IC can't be everywhere at once, but that's 
still kind of what we look to the NGA to do. I'd appreciate 
your sense of what NGA analytic strengths are today and what 
the role of commercial imagery is in NGA's future.
    Director McCabe, welcome to the table and into the fray. To 
the extent possible, I hope you'll discuss the Bureau's 
assessments of the terrorist threat within our borders. Your 
agents are often our last line of defense here at home and I 
will say continue to do outstanding work.
    We're fortunate to have six people with the experience and 
the dedication that we have today. I'll close there, but I'd 
like to highlight for my colleagues: the committee will be 
holding a classified hearing on worldwide threats this 
afternoon at 1:30. I will do everything I can to make sure that 
the questions that you ask in this open session are appropriate 
to the venue that we're in. I would ask you to think about that 
long and hard, and if there's a question to move to a staffer 
to ask them whether this is the appropriate area; and if you as 
our witnesses feel that there's something that you can't 
sufficiently answer in an open setting, that you will pause 
long enough to get my attention and I will try to make sure 
that we move to the appropriate setting.
    With that, I turn to the Vice Chairman for any comments he 
might make.

 OPENING STATEMENT OF HON. MARK R. WARNER, A U.S. SENATOR FROM 
                            VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman, and thank 
you for your leadership on this Committee. I also want to join 
in welcome the witnesses. It's good to see you all.
    But it is impossible to ignore that one of the leaders of 
the intelligence community is not here with us today. The 
President's firing of FBI Director Comey Tuesday night was a 
shocking development. The timing of Director Comey's dismissal 
to me and to many members on this committee on both sides of 
the aisle is especially troubling. He was leading an active 
counterintelligence investigation into any links between the 
Trump campaign and the Russian government or its 
representatives and whether there was any coordination between 
the campaign and Russia's efforts to interfere in our election.
    For many people, including myself, it's hard to avoid the 
conclusion that the President's decision to remove Director 
Comey was related to this investigation. And that is truly 
unacceptable.
    We were scheduled to hear directly from Director Comey 
today in open session. We and the American people were supposed 
to hear straight from the individual responsible for the FBI 
investigation. We anticipated asking Director Comey a series of 
questions about his actions and the actions of the FBI in terms 
of looking into which Trump associates, if any, and some of 
their actions during the campaign as it relates to the 
Russians. However, President's Trump's actions this week cost 
us an opportunity to get at the truth, at least for today.
    You may wonder a little bit how seriously I know the White 
House continues to dismiss this investigation. I point out 
simply for the record the front page of the ``New York Times,'' 
which shows a picture of clearly an Administration that doesn't 
take this investigation too seriously.
    It is important to restate the critical importance of 
protecting the independence and integrity of Federal law 
enforcement. This is central to maintaining the confidence of 
the American people in the principle that all Americans, no 
matter how powerful, are accountable before the law. The 
President's actions have the potential to undermine that 
confidence, and that should be deeply concerning no matter 
which political party you belong to.
    This week's remarkable developments make our Committee's 
investigation into Russia's influence on the 2016 U.S. 
presidential election even more important. And while it is 
clear to me now more than ever that an independent special 
counsel must be appointed, make no mistake, our Committee will 
get to the bottom of what happened during the 2016 presidential 
election. Again, I want to compliment the Chairman on his work 
in this effort.
    We will not be deterred from getting to the truth. These 
actions will do nothing to undermine our resolve to follow the 
evidence wherever it leads. We hope to speak to Mr. Comey. We 
will speak to anyone and everyone who has something to offer in 
this investigation.
    Mr. McCabe, while I didn't necessarily expect to see you 
here today, we don't know how long you'll be Acting FBI 
Director. But while I will adhere to what the Chairman has 
indicated in terms of the line of questioning, I will want to 
make sure my first question for you, even in this public 
setting, will be for you to assure the Committee that if you 
come under any political influence from the White House or 
others to squash this investigation or impede it in any way, 
that you'll let the Committee know.
    This investigation has had its ups and downs and again 
some, including myself, sometimes have been frustrated with the 
pace. We will no doubt face other challenges in the future. But 
ups and downs and bumps sometimes is how bipartisanship works. 
It's a constant struggle, but one worth making, and I'm proud 
of the way Members of this Committee from both sides of the 
aisle have conducted themselves in one of the most challenging 
political environments we've ever seen.
    At the same time, Chairman Burr and I have put this 
investigation on what we believe to be a solid bipartisan 
footing, with the shared goal of getting the truth. In spite of 
the events of the last 24 hours, I intend to maintain our 
Committee's focus on the investigation. Indeed, the recent 
actions only increase the burden of responsibility on all of us 
to ensure that we live up to this challenge and to uncover the 
truth, wherever that leads.
    There is, obviously, consensus agreement among the U.S. 
intelligence community that Russia massively intervened with 
active measures in the 2016 presidential elections. Nor do I 
imagine that any member of this Committee was surprised to see 
the exact same Russian playbook just being run during the 
French elections that just took place last weekend. And no one 
should forget back in mid-2015--Director Coats, we had some of 
the folks in from the German services recently--that there was 
a hacking into the German Bundestag. It's fair to say the 
Germans should anticipate seeing more cyber attacks directed 
against their elected officials with their upcoming national 
elections in September.
    In short, Russia's direct interference in democratic 
processes around the globe is a direct assault that we must 
work on together and it's clearly one of the top worldwide 
threats.
    That being said, gentlemen, I want to start again by 
thanking you for your service to the Nation. I want to 
particularly note that Director Coats is testifying before this 
Committee in the first time since his confirmation. Dan, I know 
that you and Marsha were ready for retirement and I thank you 
both for being willing to serve your country one more time.
    I also want to recognize the men and women who you 
represent here today. These thousands of dedicated intelligence 
professionals toil in the shadows, put their lives on the line, 
and make sacrifices most of us will never know in order to keep 
our country safe. I also want to make sure they know that I 
appreciate their efforts and am proud to represent them, not 
only as the Vice Chair of the Intelligence Committee, but as a 
Senator from Virginia, where so many of those intelligence 
professionals live.
    This Committee's annual Worldwide Threat hearing is an 
important opportunity to review the threats and challenges we 
face as a Nation. Obviously, these threats continue to 
multiply. As the world becomes more complex and challenging, 
good intelligence gives our policymakers and national leaders a 
heads-up on the challenges they need to address.
    The intelligence community in many ways is our Nation's 
early warning system. However, a fire alarm only works if you 
pay attention to it. You cannot ignore it simply because you do 
not like what it's telling you. Similarly, we need to make sure 
that all our policymakers pay attention to the warnings 
provided by you, the independent, nonpartisan intelligence 
professionals.
    Since the Second World War, America has relied, as we all 
know, on a global system of alliances, institutions, and norms 
to ensure our stability and prosperity. Today many challenges 
threaten that system, that system that has been built up over 
the last 70 years. As the Chairman mentioned, countries like 
China and Russia are challenging many of the global 
institutions. They are in many cases seeking to undercut and 
delegitimize them. We must work together to stand vigilant 
against that threat.
    Similarly, rogue states such as North Korea have sought to 
undercut the global nonproliferation regime. Obviously, North 
Korea is one of the most pressing issues our country faces. 
And, Admiral Rogers, as the Chairman mentioned, we all share 
enormous concern about both the up side and down side of new 
technologies and the asymmetrical threats that are posed by 
cyber and other technology actors. I would add as well--
Director Cardillo, I think we've discussed this as well--our 
dominance in terms of overhead in many ways is at threat as 
well from emerging nations.
    Terrorist groups and extremists are also able to access a 
lot of these new technologies. And while ISIS in particular 
continues to suffer losses in Syria, Iraq, and Libya, 
unfortunately it continues to spread its hateful ideology 
through social media and encrypted communications.
    Gentlemen, I have only lightly touched on a few of the 
challenges we face. I look forward to the discussion we're 
about to have. But again, I thank you for being here and look 
forward to this hearing.
    Thank you, Mr. Chairman.
    Chairman Burr. I thank the Vice Chairman.
    For members' purposes, we have a vote scheduled on the 
floor at 11:00 o'clock. It's the intent of the Chair and Vice 
Chair that we will rotate the gavel so that the hearing 
continues through. Members will be recognized by seniority for 
five minutes. When we conclude the open session, hopefully with 
enough gap for our witnesses to have some lunch, we will 
reconvene at 1:30. The afternoon vote to my knowledge is not 
set yet, but we will work around that, so plan to be back at 
the SCIF by 1:30 for that hearing to start.
    With that, Director Coats, the floor is yours.

STATEMENT OF HON. DAN COATS, DIRECTOR OF NATIONAL INTELLIGENCE; 
   ACCOMPANIED BY LT. GEN. VINCENT STEWART, DIRECTOR OF THE 
   DEFENSE INTELLIGENCE AGENCY, MIKE POMPEO, DIRECTOR OF THE 
CENTRAL INTELLIGENCE AGENCY; ANDREW MCCABE, ACTING DIRECTOR OF 
 THE FEDERAL BUREAU OF INVESTIGATION; ADMIRAL MICHAEL ROGERS, 
DIRECTOR OF THE NATIONAL SECURITY AGENCY; AND ROBERT CARDILLO, 
    DIRECTOR OF THE NATIONAL GEOSPATIAL-INTELLIGENCE AGENCY

    Director Coats. Chairman Burr, Vice Chairman Warner, 
members of the committee: Thank you for the opportunity to 
appear before you today. I'm here with my colleagues from 
across the IC community and I'm sure I speak for my colleague 
Mike Pompeo, the new Director of the CIA, that the two of us, 
new to the job, have inherited an intelligence community with 
leadership and professionals, with expertise, that is 
exceptional. It is a great privilege to hold these positions 
and know that we have the support from across 17 agencies 
relative to gathering intelligence, analyzing and synthesizing 
that intelligence, and several of those leaders are sitting 
here today and we're most appreciative of their contributions 
to their country and to this issue.
    The complexity of the threat environment is ever expanding 
and has challenged the IC to stay ahead of the adversary, and 
it has not been an easy task. Given the tasks we face around 
the world, the IC continues its work to collect, to analyze, 
and integrate these and other issues.
    We appreciate very much the support from your committee to 
address these threats in a way that will give the President, 
the Congress, and other policymakers the best and most 
integrated intelligence we can assemble.
    In the interest of time and on behalf of my colleagues at 
the table, I'll discuss just some of the many challenging 
threats that we currently face. The intelligence community's 
written statement for the record that was submitted earlier 
discusses these and many other threats in greater detail.
    Let me start with North Korea. North Korea is an 
increasingly grave national security threat to the United 
States because of its growing missile and nuclear capabilities 
combined with the aggressive approach of its leader, Kim Jong 
Un. Kim is attempting to prove he has the capability to strike 
the U.S. mainland with a nuclear weapon. He has taken initial 
steps toward fielding a mobile intercontinental ballistic 
missile, but it has not yet been flight tested.
    North Korea updated its constitution in 2012 to declare 
itself a nuclear power and its officials consistently state 
nuclear weapons are the basis for regime survival, suggesting 
Kim does not intend--not intend--to negotiate them away.
    Although intelligence collection on North Korea poses 
difficulties given North Korea's Isolation, the IC will 
continue to dedicate resources to this key challenge. It 
requires some of our most talented professionals to warn our 
leaders of the pending North Korean actions and of the long-
term implications of their strategic weapons programs.
    In Syria, we assess that the regime will maintain its 
momentum on the battlefield provided, as is likely, that it 
maintains support from Iran and Russia. The continuation of the 
Syrian conflict will worsen already disastrous conditions for 
Syrians in regional states. Furthermore, on April 4th the 
Syrian regime used the nerve agent sarin against the opposition 
in Khan Sheikhoun in what is probably the largest chemical 
attack by the regime since August 2013. The Syrian regime 
probably used chemical weapons in response to battlefield 
losses along the Hama battle front in late March that 
threatened key infrastructure.
    We assess that Syria is probably both willing and able to 
use CW, chemical warfare, in future attacks, but we do not know 
if they plan to do so. We are still acquiring and continuing to 
analyze all intelligence related to the question of whether 
Russian officials had foreknowledge of the Syrian CW attack on 
4 April, and as we learn this information we will certainly 
share it with this committee.
    Cyber threats continue to represent a critical national 
security issue for the United States for two key reasons. 
First, our adversaries are becoming bolder, more capable, and 
more adept at using cyber space to threaten our interests and 
shape real-world outcomes. And the number of adversaries grows 
as nation-states, terrorist groups, criminal organizations, and 
others continue to develop cyber capabilities.
    Secondly, the potential impact of these cyber threats is 
amplified by the ongoing integration of technology into our 
critical infrastructure and into our daily lives.
    Our relationships and businesses already rely on social 
media and communication technologies and on critical 
infrastructure. It is becoming increasingly reliant on the 
internet. As such, this raises the potential for physical, 
economic, and psychological consequences when a cyber attack or 
exploitation event occurs.
    The worldwide threat of terrorism is geographically diverse 
and multifaceted, and it poses a continuing challenge for the 
United States, for our allies and partners who seek to counter 
it. ISIS is experiencing territorial losses in Iraq and Syria, 
with persistent counterterrorism operations degrading its 
strength. However, ISIS will continue to be an active terrorist 
threat to the United States due to its proven ability to direct 
and inspire attacks against a wide range of targets around the 
world.
    Outside Iraq and Syria, ISIS is seeking to foster 
interconnectedness among its global branches and networks, 
align their efforts to its strategy, and withstand counter-ISIS 
efforts. We assess that ISIS maintains the intent and 
capability to direct, enable, assist, and inspire transnational 
attacks.
    Al-Qaeda and its affiliates continue to pose a significant 
terrorist threat overseas as they remain primarily focused on 
local and regional conflicts. Homegrown violent extremists 
remain the most frequent and unpredictable terrorist threat to 
the United States homeland. This threat will persist, with many 
attacks happening with little or no warning.
    In Turkey, tensions in Turkey might escalate rapidly and 
unpredictably in 2017 as the government's consolidation of 
power, crackdowns on dissent, and restrictions on free media 
continue.
    Let me now take just a quick run through some key areas of 
the Middle East. In Iraq, Baghdad's primary focus through 2017 
will be recapturing and stabilizing Mosul and other territory 
controlled by ISIS. ISIS in Iraq is preparing to regroup, 
however, and continue an insurgency and terrorist campaign even 
as it loses territory. We assess that Iraq will still face 
serious challenges to its stability, political viability, and 
territorial integrity even as the threat from ISIS is reduced. 
Reconstruction will cost billions of dollars and ethnosectarian 
and political reconciliation will be an enduring challenge.
    In Iran, Teheran's public statements suggest that it wants 
to preserve the Joint Comprehensive Plan of Action because it 
views the deal as a means to remove sanctions while preserving 
some nuclear capabilities. Iran's implementation of the deal 
has extended the amount of time Iran would need to produce 
enough fissile material for a nuclear weapon from a few months 
to about a year.
    Teheran's malignant activities, however, continue. For 
example, Iran provides arms, financing, and training and 
manages as many as 10,000 Iraqi, Afghan, and Pakistani Shia 
fighters in Syria to support the Assad regime. Iran has sent 
hundreds of its own forces, to include members of the Islamic 
Revolutionary Guard Corps and the IRGC Quds Force, to Syria as 
advisers.
    In Yemen, fighting--we assess fighting will almost 
certainly persist in 2017 between Houthi-aligned forces trained 
by Iran and the Yemeni government, backed by a Saudi-led 
coalition. Neither side has been able to achieve decisive 
results through military force to this point. Al-Qaeda in the 
Arabian Peninsula, an ISIS branch in Yemen, have exploited the 
conflict and the collapse of government authority to gain new 
recruits and allies and expand their influence.
    In South Asia, the intelligence community assesses that the 
political and security situation in Afghanistan will almost 
certainly deteriorate through 2018, even with a modest increase 
in military assistance by the United States and its partners. 
This deterioration is undermined by its dire economic 
situation. Afghanistan will struggle to curb its dependence on 
external support until it contains the insurgency or reaches a 
peace agreement with the Taliban.
    Meanwhile, we assess that the Taliban is likely to continue 
to make gains, especially in rural areas. Afghan Security 
Forces' performance will probably worsen due to a combination 
of Taliban operations, combat casualties, desertions, poor 
logistics support, and weak leadership.
    Pakistan is concerned about international isolation and 
sees its position through the prism of India's rising 
international status, including India's expanded foreign 
outreach and deepening ties to the United States. Pakistan will 
likely turn to China to offset its isolation, empowering a 
relationship that will help Beijing to project influence into 
the Indian Ocean.
    In addition, Islamabad has failed to curb militants and 
terrorists and Pakistan. These groups will present a sustained 
threat to the United States' interests in the region and 
continue to plan and conduct attacks in India and Afghanistan. 
Pakistan is also expanding its nuclear arsenal and pursuing 
tactical nuclear weapons, potentially lowering the threshold 
for their use.
    Let me now turn to Russia. We assess that Russia is likely 
to be more aggressive in foreign and global affairs, more 
unpredictable in its approach to the United States, and more 
authoritarian in its approach to domestic policies and 
politics. We assess that Russia will continue to look to 
leverage its military support to the Assad regime to drive a 
political settlement process in Syria on their terms. Moscow is 
also likely to use Russia's military intervention in Syria in 
conjunction with efforts to capitalize on fears of a growing 
ISIS and extremist threat to expand its role in the Middle 
East.
    We assess that Moscow's strategic objectives in Ukraine--
maintaining long-term influence over Kiev and frustrating 
Ukraine's attempts to integrate into Western institutions--will 
remain unchanged in 2017. Russia's military intervention in 
eastern Ukraine contains more than two years--continues, excuse 
me--more than two years after the Minsk 2 Agreement. Russia 
continues to exert military and diplomatic pressure to coerce 
Ukraine into implementing Moscow's interpretation of the 
political provisions of the Minsk agreement, among them 
constitutional amendments that would effectively give Moscow a 
veto over Kiev's strategic decisions.
    In China, China will continue, we assess, to pursue an 
active foreign policy, especially within the Asia Pacific 
region, highlighted by a firm stance on competing territorial 
claims in the East China Sea and South China Sea, relations 
with Taiwan, and its pursuit of economic engagement across East 
Asia. China views a strong military as a critical element in 
advancing its interests. It will also pursue efforts aimed at 
fulfilling its ambitious ``One Belt, One Road'' initiative to 
expand their strategic influence and economic role across Asia 
through infrastructure projects.
    Just a quick look at sub-Saharan Africa, home to more than 
a billion people and expected to double in size by mid-century. 
African governments face the threat of coups, popular 
uprisings, widespread violence, and terrorist attacks, 
including from Al-Qaeda and its ISIS affiliates.
    In the Western Hemisphere, Venezuela's unpopular autocratic 
government will turn to increasingly repressive means to 
contain political opponents and street unrest. Oil has long 
been the regime's cash cow, but mismanagement has led to 
declining output and revenue. We assess the Venezuelan 
government will struggle to contain inflation, make debt 
payments, and pay for imports of scarce basic goods and 
medicines.
    Mexico's government will focus on domestic priorities to 
prepare for the 2018 presidential election while seeking to 
limit fallout from strained relations with the United States. 
Public demand for government action against crime and 
corruption will add to political pressure.
    As Cuba heads into the final year of preparations for a 
historic transition to a next generation leader in early 2018, 
the government's focus will be on preserving control while 
managing recession. Cuba, which continues to use repressive 
measures to stifle human rights and constrain democracy 
activists, blames its slowing economy on lower global commodity 
prices, the U.S. embargo, and the economic crisis in Venezuela, 
a key benefactor.
    Let me just make a statement on the threat from illegal 
drugs. The threat to the United States from foreign-produced 
drugs, especially heroin, synthetic opioids, meth, and cocaine, 
has grown significantly in the past few years. This is 
contributing to previously unseen levels of U.S. drug-related 
mortality, which now exceeds all other U.S. causes of injurious 
death.
    Finally, I'd like to make a few points here that are 
important to the IC going forward. As you are all very aware, 
Section 702 of the FISA Amendments Act is due to expire at the 
end of the year. I cannot stress enough the importance of this 
authority in how the IC does its work to keep Americans safe, 
and I know that is shared by everyone at this table.
    Section 702 is an extremely effective tool to protect our 
Nation from terrorists and other threats. As I described in my 
confirmation hearing, 702 is instrumental to so much of the 
IC's critical work in protecting the American people from 
threats from abroad.
    The intelligence community is committed to working with all 
of you, in both classified and unclassified sessions, to ensure 
that you understand not only how we use our authorities, but 
also how we protect privacy and civil liberties in the process.
    Additionally, many of you have asked me as part of my 
confirmation process about the status of the IC, its 
effectiveness and efficiency, and how it can be improved. As 
part of the Administration's goal of an effective and efficient 
government, the ODNI has already begun a review of the entire 
intelligence community, to include the Office of the DNI, and 
to answer the very questions about how we can make our process 
even more streamlined, more efficient, and more effective.
    My office is proud to lead this review and I look forward 
to the confirmation of my principal deputy in order to shepherd 
this process to completion, and I have total confidence in her 
that she has the capacity and capability to effectively lead 
this effort.
    The recently passed intelligence authorization bill also 
includes the requirement for a review of the IC focused on 
structures and authorities ten years beyond the intelligence 
reforms of the mid-2000s. Between these two reviews, I am 
confident that I will be able to report back to the committee 
with constructive recommendations on the best ways forward for 
the whole of the IC.
    In the short time I've been on this job, I have learned 
that the IC is full of dedicated, talented, creative, and 
patriotic men and women who are committed to keeping America 
safe. We must retain this posture while looking for ways to 
improve.
    In conclusion, the intelligence community will continue its 
tireless work against these and all threats, but we will never 
be omniscient. Although we have extensive insight into many 
threats and places around the world, we have gaps in others. 
Therefore, we very much appreciate the support provided by this 
committee and will continue to work with you to ensure that the 
intelligence community has the capabilities it needs to meet 
its many mission needs.
    With that, we are ready to take your questions.
    [The prepared statement of Director Coats follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Chairman Burr. Director Coats, thank you for that very 
thorough and comprehensive testimony on behalf of the 
intelligence community. Dan, quite frankly, you make us proud, 
seeing one of our own now head the entire intelligence 
community, and I want to thank you and Marsha personally for 
your willingness to do that.
    Director Coats. Thank you.
    Chairman Burr. And to also pass to you, we are anxious for 
your deputy to be considered by the committee. Would you please 
send us a nomination?
    Director Coats. We are doing our very best to do that. 
Nobody's more anxious than me.
    Chairman Burr. I'm sure that's the case.
    I'm going to recognize myself for five minutes.
    Director McCabe, did you ever hear Director Comey tell the 
President that he was not the subject of an investigation? 
Excuse me. Did you ever hear Director Comey tell the President 
he was not the subject of an investigation?
    Director McCabe. Sir----
    Chairman Burr. Could you turn on your microphone, please.
    Director McCabe. Rookie mistake. I'm sorry.
    Sir, I can't comment on any conversations the Director may 
have had with the President.
    Chairman Burr. Okay.
    General Stewart, you heard Director Coats state on 
everybody's behalf that there is an expected deterioration of 
conditions in Afghanistan. Can you give us DIA's assessment of 
the situation today in Afghanistan and what would change that 
deterioration?
    General Stewart. Thanks, Mr. Chairman. I pay close 
attention to the operations in Afghanistan. I make two trips 
there each year, one before the fighting season and one 
following the fighting season. That way I get on the ground my 
own personal assessment of how things are going.
    I was there about six weeks ago. The ANDSF, two years into 
taking control of the security environment, has had mixed 
results in this past year. Those mixed results can characterize 
the security environment as a stalemate and, left unchecked, 
that stalemate will deteriorate in favor of the belligerents. 
So we have to do something very different than what we've been 
doing in the past.
    Let me back out just a little bit and talk about the fact 
that the Taliban failed to meet any of their strategic 
objectives that they outlined during the last fighting season. 
They controlled no district centers. They were able to execute 
high-visibility attacks, which causes a psychological effect, 
that has a debilitating effect. They maintained some influence 
in the rural areas, but they controlled none of the large 
district centers.
    Having said that, the Afghan National Defense Security 
Forces did not meet their force generation objectives. They had 
some success in training the force. They were able to manage a 
crisis better than they have in the past. They were able to 
deploy forces, but failed in my opinion to employ the ISR and 
the fire support to make them as effective on the battlefield 
as possible.
    Unless we change something where we introduce either U.S. 
forces or NATO forces, that changes the balance of forces on 
the ground, changes the fighting outputs on the ground, or add 
additional training and advising capability at lower levels 
than we do now, the situation will continue to deteriorate and 
we'll lose all the gains that we've invested in over the last 
several years.
    So they've got to get more trainers below the corps level, 
I believe--not sure how far down--or they'd have to get more 
personnel on the ground, generate greater forces, greater fire 
support, greater use of ISR, or this will in fact deteriorate 
further.
    Chairman Burr. Thank you, General.
    Admiral Rogers, every aspect of our daily lives continues 
to become part of a traceable, trackable, interacting 
environment now known as the Internet of Things. In addition, 
artificial intelligence, or AI, has increasingly enabled 
technology to become autonomous. What is the IC's current 
assessment of the ever-changing capabilities of the Internet of 
Things and what it presents?
    Admiral Rogers. It represents both opportunity, but from an 
information assurance or computer network defense perspective 
it represents great concern, where the ability to harness 
literally millions of devices that were built to very simple, 
day to day activities, suddenly can be tied together and 
focused and oriented to achieve a specific outcome. We've seen 
this with denial of service attempts against a couple 
significant companies on the East Coast of the United States in 
the course of the last year.
    This is going to be a trend in the future. It's part of the 
discussions we're having. I'm in the midst of having some 
discussions in the private sector. This is going to be a 
problem that's common to both of us. How can we work together 
to try to, number one, understand this technology and, number 
two, ask ourselves how do we ensure that it's not turned 
around, if you will, against us.
    Chairman Burr. Thank you for that.
    Admiral Rogers, I'll probably put this to you as well. 
Section 702 of the FISA Amendments Act authorizes the 
government to target only non-U.S. persons reasonably believed 
to be located outside the United States for the purposes of 
acquiring foreign intelligence information. Section 702 cannot 
be used to target any person located inside the United States, 
and the law prohibits the government from reverse targeting, 
that is targeting a non-U.S. person outside the United States 
specifically for the purpose of collecting the communications 
of a person inside the United States. The IC uses FISA 702 
collection authority to detect, identify, and disrupt terrorist 
and other national security threats.
    How would you characterize 702 authority and its importance 
to the current intelligence collection platform overall?
    Admiral Rogers. If we were to lose 702's authorities, we 
would be significantly degraded in our ability to provide 
timely warning and insight as to what terrorist actors, nation-
states, and criminal elements are doing that is of concern to 
our Nation, as well as our friends and allies. This 702 has 
provided us insight that is focused both on counterterrorism 
quite as well as counter-proliferation, understanding what 
nation-states are doing. It's given us tremendous insights in 
the computer network defense arena. I would highlight much--not 
all--much of what was in the intelligence community's 
assessment, for example, on the Russian efforts against the 
U.S. election process in 2016 was informed by knowledge we 
gained through 702 authority.
    Chairman Burr. Thank you for that.
    Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    I've got a couple questions that hopefully will only 
require yes or no answers. First, for the whole panel, the 
assembled leadership of the intelligence community: do you 
believe that the January 2017 Intelligence Community Assessment 
accurately characterized the extent of Russian activities in 
the 2016 election in its conclusion that Russian intelligence 
agencies were responsible for the hacking and leaking of 
information and using this information in order to influence 
our elections? A simple yes or no would suffice.
    Director Cardillo. I do, yes, sir.
    General Stewart. Yes, Senator.
    Admiral Rogers. Yes, I do.
    Director Coats. Yes, I do.
    Director McCabe. Yes.
    Director Pompeo. Yes.
    Vice Chairman Warner. I guess the presumption, the next 
presumption--I won't even ask this question--is, consequently 
that community assessment was unanimous and is not a piece of 
fake news or evidence of some other individual or nation-state 
other than Russia. So I appreciate that again for the record.
    I warned you, Mr. McCabe, I was going to have to get you on 
the record as well on this. Mr. McCabe, for as long as you are 
Acting FBI Director do you commit to informing this Committee 
of any effort to interfere with the FBI's ongoing investigation 
into links between Russia and the Trump campaign?
    Director McCabe. I absolutely do.
    Vice Chairman Warner. Thank you so much for that. I think, 
in light of what's happened in the last 48 hours, it's 
critically important that we have that assurance. And I hope 
you'll relay, at least for me, to the extraordinary people who 
work at the FBI that this Committee supports them, supports 
their efforts, supports the professionalism, and supports their 
independence.
    Director McCabe. I will, sir. Thank you.
    Vice Chairman Warner. In light of the fact that we just saw 
French elections where it felt like deja vu all over again in 
terms of the release of a series of emails against Mr. Macron 
days before the election, and the fact that this committee 
continues to investigate the type of tactics that Russia has 
used, where do we stand as a country in terms of preparation to 
make sure this doesn't happen again in 2018 and 2020?
    Where have we moved in terms of collaboration with State 
voter files, in terms of working more with the tech community, 
particularly the platform entities, in terms of how we can 
better assure real news versus fake news? And is there some 
general sense--Director Coats, I know you've only been in the 
job for a short period of time--of how we're going to have a 
strategic effort? Because while it was Russia in 2016, other 
nation-states could launch similar-type assaults.
    Director Coats. Well, we will continue to use all the 
assets that we have in terms of collection and analysis 
relative to what the influence has been and potentially could 
be in future. The Russians have spread this across the globe. 
Interestingly enough, I met with the Prime Minister of 
Montenegro, the latest nation to join NATO, the number 29 
nation. What was the main topic? Russian interference in their 
political system.
    So it sweeps across Europe and to other places. It's clear, 
though, the Russians have upped their game using social media 
and other opportunities in ways we haven't seen before. So it's 
a great threat to our democratic process, and our job here is 
to provide the best intelligence we can to the policymakers as 
they develop a strategy in terms of how to best reflect a 
response to this.
    Vice Chairman Warner. One of the things I'm concerned about 
is, we've all expressed this concern, but since this doesn't 
fall neatly into any particular agency's jurisdiction, who's 
taking the point on interacting with the platform companies, a 
la the Google, Facebook, and Twitters? Who's taking the point 
in terms of interacting with DHS, I imagine, in terms of State 
boards of election? How are we trying to ensure that our 
systems are more secure?
    If we could get a brief answer on that because I have one 
last question for Admiral Rogers.
    Director Coats. Well, I think obviously our office tasks 
and takes the point, but there's contribution from agencies 
across the IC. I might ask Director Pompeo to address that, and 
others might want to address that also. But each of us, each of 
the agencies, to the extent that they can and have the 
capacity, whether it's NSA through SIGINT, whether it's CIA 
through HUMINT or other sources, will provide information to us 
that we want to use as a basis to provide to our policymakers.
    Relative to a grand strategy, I am not aware right now of 
any--I think we're still assessing the impact. We have not put 
a grand strategy together, which would not be our purview. We 
would provide the basis of intelligence that would then be the 
foundation for what that strategy would be.
    Vice Chairman Warner. My hope would be that we need to be 
proactive in this. We don't want to be sitting here kind of 
looking back at it after a 2018 election cycle.
    Last question very briefly. Admiral Rogers, do you have any 
doubt that the Russians were behind the intervention in the 
French elections?
    Director Rogers. Let me phrase it this way. We are aware of 
some Russian activity directed against the Russian--excuse me--
directed against the French election process. As I previously 
said before Congress earlier this week, we in fact reached out 
to our French counterparts to say: We have become aware of this 
activity; we want to make you aware; what are you seeing?
    I'm not in a position to have looked at the breadth of the 
French infrastructure, so I'm not really in a position to make 
a whole simple declaratory statement.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Mr. McCabe, can you--without going to the specifics of any 
individual investigation, I think the American people want to 
know, has the dismissal of Mr. Comey in any way impeded, 
interrupted, stopped, or negatively impacted any of the work, 
any investigation, or any ongoing projects at the Federal 
Bureau of Investigation?
    Director McCabe. As you know, Senator, the work of the men 
and women of the FBI continues despite any changes in 
circumstance, any decisions. So there has been no effort to 
impede our investigation to date. Quite simply put, sir, you 
cannot stop the men and women of the FBI from doing the right 
thing, protecting the American people and upholding the 
Constitution.
    Senator Rubio. This is for all the Members of the 
Committee. As has been widely reported--and people know this--
Kaspersky Lab software is used by, not hundreds of thousands, 
millions of Americans. To each of our witnesses, I would just 
ask: would any of you be comfortable with Kaspersky Lab's 
software on your computers?
    Director Coats. A resounding no for me.
    Director Rogers. No.
    Director Pompeo. No, Senator.
    Director McCabe. No, sir.
    Director Stewart. No, Senator.
    Director Cardillo. No, sir.
    Senator Rubio. Director Pompeo, on Venezuela, which was 
mentioned in Director Coats' statement, as all of you are 
probably well aware, armed civilian groups or colectivos, these 
militias in the street, have been armed by the regime for 
purposes of defending, for lack of a better term, the regime 
from protesters. We all are aware of the Maduro regime's cozy 
relationship with Hezbollah, with the FARC, which is a 
designated terrorist organization, and links to 
narcotrafficking.
    Among the weapons in the stockpile of the military in 
Venezuela are Igla-S, these basically Russian variants of our 
Stinger missiles. Director Pompeo, if you could comment on the 
risk that I believe exists that as these groups become more 
desperate, potentially even operate at some point outside the 
control of the Maduro regime, running around in the streets, 
also in search of money and food and anything else that they 
want to get their hands on, the threat of any advanced weaponry 
such as what I just mentioned being sold or transferred to the 
FARC, a terrorist organization, sold to drug cartels in Mexico 
potentially, or even sold to terrorist organizations on the 
black market? Is that a real threat? Is that something we 
should be cognizant of?
    Director Pompeo. Senator, it is a real threat. As we have 
all seen, the situation in Venezuela continues to deteriorate. 
Maduro gets more desperate by the hour. The risk of these 
colectivos acting in a way that is not under his control 
increases as time goes on as well.
    In a classified setting, I'm happy to share with you a 
little bit more about the details of what we know. We have not 
seen any of those major arms transfers take place. We don't 
have any evidence that those have taken place to date. But 
those stockpiles exist, not only in the Maduro regime, but 
other places as well. There are plenty of weapons running 
around in Venezuela and this risk is incredibly real and 
serious and ultimately a threat to South America and Central 
America, in addition to just in Venezuela.
    Senator Rubio. Staying in the Western Hemisphere for a 
moment--and this potentially is also to the Director, Director 
McCabe, and to you, Director Pompeo. I continue to be concerned 
about the potential and I believe is the reality of a concerted 
effort on the part of the Cuban government to recruit and 
unwittingly enlist Americans, business executives and others, 
even local and state political leaders, in an effort to have 
them influence U.S. policymaking on Cuba, and particularly the 
lifting of the embargo.
    Would this be a tactic consistent with what we have seen in 
the past from other nation-states, including the regime in 
Cuba?
    Director Pompeo. I'll let Mr. McCabe comment as well, but 
yes, of course. Frankly, this is consistent with--the attempt 
to interfere in the United States is not limited to Russia. The 
Cubans have deep ties. It is in their deepest tradition to take 
American visitors and do their best to influence them in a way 
that's adverse to U.S. interests.
    Director McCabe. Yes, sir, fully agree. We share your 
concerns about that issue.
    Senator Rubio. My final question is, with all this focus on 
Russia and what's happened in the past, is it the opinion of 
all of you or those of you--certainly all have insight on 
this--that even as we focus on 2016 and the efforts leading up 
to that election, efforts to influence policymaking here in the 
United States vis-a-vis the Russian interests are ongoing, that 
the Russians continue to use active measures even at this 
moment, even on this day, to try, through the use of multiple 
different ways, to influence the political debate and decisions 
made in American politics, particularly as they pertain to 
Russia's interests around the world? In essence, these active 
measures are an ongoing threat, not simply something that 
happened in the past.
    Director McCabe. Yes, sir, that's right.
    Director Pompeo. Senator, it's right. In some sense, 
though, we ought to put it in context. This has been going on 
for a long time. There's nothing new. Only the cost has been 
lessened, the cost of doing it.
    Director Coats. I would just add that the use of cyber and 
social media significantly increased the impact and the 
capabilities. Obviously, this has been done for years and 
years, even decades. But the ability to have--to use the 
interconnectedness and all that provides, that it didn't 
provide before--they've literally upped their game to the point 
where it's having a significant impact.
    Director Rogers. From my perspective, I would just 
highlight, cyber is enabling them to access information in 
massive quantities that weren't quite attainable to the same 
level previously. That's just another tool in their attempt to 
acquire information, misuse of that information, manipulation, 
outright lies, inaccuracies at times, but in other times 
actually dumping raw data, which we also saw during this last 
presidential election cycle for us.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    There's obviously more than one threat to our country. I 
would argue that the greatest danger to the United States is 
North Korea. I'm one of those who has been very worried and 
trying to follow this as close as possible.
    In the statement for the record, you state, and I quote: 
``North Korea's nuclear weapons and missile programs will 
continue to pose a serious threat to U.S. interests in to the 
security environment in East Asia in 2017.'' You go on to 
state: ``Pyongyang is committed to developing a long-range 
nuclear-armed missile that is capable of posing a direct threat 
to the United States.''
    These assessments, combined with North Korea's behavior, 
recent ballistic missile launches, and proximity to U.S. forces 
and allies in Asia, are deeply concerning. For the purpose of 
this open hearing, could each of you express the threat posed 
by North Korea in this public setting and then address, most 
importantly, some of the specific actions we're taking as a 
Nation? Some of it you may want to do in the closed hearing 
later.
    Director Coats. I think we could get into greater detail in 
the closed hearing. But it's clear that we have assessed this 
as a very significant, potentially existential, threat to the 
United States that has to be addressed. You're aware there has 
been considerable discussion among the policymakers, with our 
providing intelligence with the Administration, relative to 
steps moving forward. General Mattis has taken a major role in 
this, as well as our Secretary of State and others.
    The interaction with the Chinese of late we think can play 
a significant role in terms of how we deal with this. We have 
dedicated a very significant amount of our intelligence 
resources to the issue of North Korea. I think we'd look 
forward to going deeper into all of that in the classified 
session.
    Senator Feinstein. Well, let me ask this. Is it possible in 
this hearing to estimate when they will have an 
intercontinental ballistic missile capable of taking a nuclear 
warhead?
    Director Coats. I think it would be best if we save that, 
those kind of details, for the closed session.
    Senator Feinstein. Can you say in this session how 
effective China has been in stopping some of the testing?
    Director Pompeo. Senator Feinstein, let me try and answer 
that as best I can. I actually just returned from Korea. I was 
there last week. I had a chance to be with our great soldier, 
General Brooks, and his team, as well as the great soldiers of 
the Republic of Korea Army who are on the front lines there. 
They're doing amazing work in a difficult condition.
    With respect to the Chinese, they have made efforts in a 
way that they have not made before in an effort to close down 
the trade that they have and putting pressure, diplomatic 
pressure as well, on the North Koreans. The intelligence would 
suggest that we're going to need more to shake free this 
terribly challenging problem, and that they could do more and 
they have the capacity to do more as well.
    Senator Feinstein. Could you be specific? Have they 
entirely stopped coal? To what degree have they reduced it? How 
about oil and other commodities?
    Director Pompeo. I'd prefer to defer the details of that to 
the classified setting, but there have been restrictions on 
coal that have been significant.
    Senator Feinstein. Is there any other comment?
    Director Stewart. If I could, Senator. North Korea has 
declared its intent. It said it publicly. It produces 
propaganda images that show their intent to develop 
intercontinental missiles, nuclear-armed. What we have not seen 
them do is do a complete end to end test of an ICBM with a 
nuclear device.
    In the closed session we can talk about how close they 
might be to doing that. But they're certainly on parallel 
paths: a nuclear device, processing enough fissile material for 
nuclear warheads, and developing a wide range of missile 
technology--short, intermediate, long-range missile technology. 
So they're going to put those two together at some point, but 
we have not seen them do that, test it end to end, missile 
launch, intercontinental range, miniaturization, and survival 
of a reentry vehicle. But they're on that path and they're 
committed to doing that.
    Senator Feinstein. Thank you.
    Director Cardillo. I'd just add, Senator, on top of General 
Stewart's comments that they are in a race. He's pushing very 
hard on the accelerator here. This whole panel is well aware of 
that and we are doing everything in our power--and we can give 
you the details in closed--to make sure that we give you and 
our customers the advantage to win that race.
    Senator Feinstein. If I might just say, Mr. Cardillo, 
you've given us very good information, very solid information. 
It is much appreciated. I think it is time for the American 
people to begin to understand that, as the Director said, we do 
in fact have an existential threat in the Pacific Ocean and we 
need to come to grips with it.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Director Coats, let me join everybody else in welcoming you 
back to the Committee, this time on the other side of the 
hearing table, but pleased along with others as you take this 
responsibility.
    It's my understanding--I want to talk just a little bit 
about two executive orders on vetting that the President has 
been challenged on in court. My understanding is you're, as the 
DNI, involved in that vetting, in that process; is that right? 
The screening process, is that something that reports up 
through you?
    Director Coats. You're talking about the classification 
process?
    Senator Blunt. Well, I'm talking about the extreme vetting, 
where the President's issued--the first executive order was 
January the 27th, where the President's order said that we'd 
suspend refugee admissions from certain countries for 90 days 
pending a review. There's also 120 days mentioned in that 
order.
    Since we're beyond 90 days and approaching 120 days, my 
real question is, are we, in spite of what's happening outside 
of the organization, are we continuing to pursue that time line 
and are we about to get to the 120 days of having that review 
period behind us?
    Director Coats. I would like to take that question and get 
back to you with the specifics relative to the days away, what 
has been done to this particular date, and are we on target. 
Obviously, this is going forward. I don't have the details in 
front of me right now, but I'd be happy to get that information 
for you.
    Senator Blunt. Good. I'd be interested in that. And I'd be 
very concerned, frankly, if we're now over 100, close to 120, 
days into that time frame, to find out that the 120 days didn't 
get the job done because we were waiting to figure out how the 
order could be properly enforced. So I'd be very interested in 
that.
    On the cyber front, Director Cardillo, I know, among other 
things, your organization has conducted what you've called 
hackathons, or at least have been called hackathons. What has 
that done in terms of bringing other people into the discussion 
of how we protect ourselves better from these cyber attacks?
    Director Cardillo. Thank you, Senator. We're quite proud at 
NGA of our history of support to the community and to you, but 
through predominantly historically closed systems, government-
owned systems, etcetera. As the committee has already discussed 
and the panel has responded, clearly the high-tech reality of 
our world, the interconnectedness of the internet, etcetera. 
What we're trying to do is take that historic success of our 
expertise and our experience and then engage with that 
community in a way that we can better leverage our data in a 
way to inform and warn you.
    I'm trying to tap into the agility and the innovation of 
that community. We use these hackathons to put out challenge 
questions in which we can engage with industry and academia in 
a way that will enable us to do our job better.
    Senator Blunt. Let me ask one more question of you. We had 
a witness before this committee on March 30th in an open 
hearing, Clint Watts, who observed that--he said, quote: ``The 
intelligence community is very biased against open source 
information.'' That ends his quote.
    I may come to you on that, too, Director Pompeo. But in 
terms of Geospatial, what are you doing there with open source 
information?
    Director Cardillo. We're engaging. As Admiral Rogers 
mentioned, though, there's an up side to this connectedness and 
the fact that the commercial market and the commercial imagery 
market is getting into a business that was prior a government-
only entity has great advantage. We seek to build on that and 
take advantage of those developments.
    We also need to go in eyes wide open and realize that there 
is a risk. So I don't have a bias. I have an awareness and 
appreciation for this open development and innovation. My 
commitment is to smartly engage with it, to make sure that we 
use the best of it, while we're aware that there is a risk as 
we do so.
    Senator Blunt. Director Pompeo, do you think that was a 
fair criticism, that the intelligence community is biased 
against using open source information?
    Director Pompeo. Senator Blunt, I think historically that 
may well have been true. I don't think that's the case today. 
We have an enormous open source enterprise that does its best 
to stay up with and be world class in information management 
and get information that is not stolen secrets, but open source 
information, to the right place at the right time to help 
inform the intelligence that we provide to you and to our other 
customers.
    So today I would say that statement is inaccurate.
    Senator Blunt. Thank you, Director.
    Thank you, Chairman.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Let me ask--let me highlight one issue and ask a question, 
Director Coats, about another issue. And I'd invite comment 
from anyone who has something they want to offer. I've been 
increasingly concerned about foreign governments hiring 
lobbyists here in Washington and, unbeknownst to members of 
Congress, actually lobbying Congress to enact policies which 
may be contrary to the best interests of the American people.
    Of course, the Foreign Agent Registration Act provides some 
level of transparency for that. But I just highlight that issue 
and we can come back to it at a later time because I want to 
ask you about another topic as well.
    The Committee on Foreign Investment in the United States, 
or CFIUS, provides a very important role in determining whether 
there are technology transfers from the United States to 
foreign governments. I'm happy to see, Director Coats, your 
comments on page 4 of your written statement specifically 
regarding China's increasing effort to use investment as a way 
to improve its technological capabilities.
    China we've seen continues to use an aggressive campaign to 
vacuum up advanced U.S. technology however and whenever it can, 
whether stealing it through cyber or buying it on the open 
market. Do you feel like the current CFIUS process adequately 
protects against this threat vector, and are all elements of 
the U.S. Government cognizant of these vulnerabilities?
    Director Coats. I can't speak to how many agencies of the 
U.S. Government are as cognizant as perhaps they should be, but 
I certainly think that, given China's aggressive approach 
relative to information-gathering and all the things that you 
mentioned, it merits a review of CFIUS in terms of whether or 
not it needs to have some changes or innovations to address the 
aggressive, aggressive Chinese actions, not just against our 
companies but across the world.
    They clearly have a strategy through their investments. 
They started a major investment bank. You name a part of the 
world, the Chinese probably are there, looking to put 
investments in. We've seen the situation in Djibouti where 
they're also adding military capability to their investment in 
a strategic area on the Horn of Africa there, that you wouldn't 
necessarily expect this. But they're active in Africa, northern 
Africa. They're active across the world.
    Their ``One Belt, One Road'' process opens their trade and 
what other interests they have to the Indian Ocean in a 
different way to address nations that they've had difficulty 
connecting with.
    So it's clearly an issue that we ought to take a look at.
    Senator Cornyn. Thank you.
    Director Pompeo. Senator Cornyn, if I might just add one 
comment, two quick comments, one on CFIUS. It mostly deals with 
change of control transactions, purchases. There are many other 
ways one could invest in an entity here in the United States 
and exert significant control over that entity. I think that 
ought to be looked at.
    Then second and apart from CFIUS, there are many vectors. 
You mentioned several. Other places are educational 
institutions, where there are many folks coming here, some who 
are coming here in good faith to learn, but others who are 
being sent here with less noble undertakings and missions.
    Director Rogers. The only additional comment I was going to 
make is, it is clear as we watch China and other nations they 
are gaining greater insights as to our CFIUS processes, the 
criteria that we use that tend to shape our decision process. 
So I think that's also an issue of concern that we're aware of 
here.
    Senator Cornyn. Thank you. I look forward to visiting with 
you in the closed session later on.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman.
    Gentlemen, it's fair to say I disagreed with Director Comey 
as much as anyone in this room. But the timing of this firing 
is wrong to anyone with a semblance of ethics. Director Comey 
should be here this morning testifying to the American people 
about where the investigation he has been running stands.
    At our public hearing in January when he refused to discuss 
his investigation into connections between Russia and Trump 
associates, I stated my fear that if the information didn't 
come out before Inauguration Day it might never come out. With 
all the recent talk in recent weeks about whether there is 
evidence of collusion, I fear some colleagues have forgotten 
that Donald Trump urged the Russians to hack his opponents.
    He also said repeatedly that he loved WikiLeaks. So the 
question is not whether Donald Trump actively encouraged the 
Russians and WikiLeaks to attack our democracy. He did. That is 
an established fact. The only question is whether he or someone 
associated with him coordinated with the Russians.
    Now, Mr. McCabe, the President's letter to Director Comey 
asserted that on three separate occasions the Director informed 
him that he was not under investigation. Would it have been 
wrong for the Director to inform him he was not under 
investigation? Yes or no?
    Director McCabe. Sir, I'm not going to comment on any 
conversations that the Director may have had----
    Senator Wyden. I didn't ask that. Would it have been wrong 
for the Director to inform him he was not under investigation? 
That's not about conversations. That's a yes or no answer.
    Director McCabe. As you know, Senator, we typically do not 
answer that question. I will not comment on whether or not the 
Director and the President of the United States had that 
conversation.
    Senator Wyden. Will you refrain from these kinds of alleged 
updates to the President or anyone else in the White House on 
the status of the investigation?
    Director McCabe. I will.
    Senator Wyden. Thank you.
    Director Pompeo, one of the few key unanswered questions is 
why the President didn't fire Michael Flynn after Acting 
Attorney General Yates warned the White House that he could be 
blackmailed by the Russians. Director Pompeo, did you know 
about the Acting Attorney General's warnings to the White House 
or were you aware of the concerns behind the warning?
    Director Pompeo. I don't have any comment on that.
    Senator Wyden. Well, were you aware of the concerns behind 
the warning? I mean, this is a global threat. This is a global 
threat question. This is a global threat hearing. Were you 
aware?
    Director Pompeo. Senator, tell me what global threat it is 
you're concerned with, please? I'm not sure I understand the 
question.
    Senator Wyden. Well, the possibility of blackmail. I mean, 
blackmail by an influential military official, that has real 
ramifications for the global threat. So this is not about a 
policy implication. This is about the National Security Adviser 
being vulnerable to blackmail by the Russians. The American 
people deserve to know whether in these extraordinary 
circumstances the CIA kept them safe.
    Director Pompeo. Yes, sir, the CIA has kept America safe, 
and the people at the Central Intelligence Agency are committed 
to that and will remain committed to that. And we will do that 
in the face of----
    Senator Wyden. You won't answer the question.
    Director Pompeo. We will do that in the face of political 
challenges that come from any direction, Senator.
    Senator Wyden. But you will not answer the question of 
whether or not you were aware of the concerns behind the Yates 
warning?
    Director Pompeo. Sir, I don't know exactly what you're 
referring to with ``the Yates warning.'' I wasn't part of any 
of those conversations.
    Senator Wyden. The Yates warning was----
    Director Pompeo. Senator, I have no----
    Senator Wyden [continuing]. That the White House could be 
blackmailed.
    Director Pompeo. I have no firsthand information with 
respect to the warning that was given. She didn't make that 
warning to me. I can't answer that question, Senator, as much 
as I would like to.
    Senator Wyden. Okay.
    Director Coats, how concerned are you that a Russian 
government oil company run by a Putin crony could end up owning 
a significant percentage of U.S. oil refining capacity, and 
what are you advising the Committee on Foreign Investment in 
the United States about this?
    Director Coats. I don't have specific information relative 
to that. I think that's something that potentially we could 
provide intelligence on in terms of what the situation might 
be.
    Senator Wyden. I'd like you to furnish that in writing.
    Let me see if I can get one other question in. There have 
been mountains of press stories with allegations about 
financial connections between Russia and Trump and his 
associates. The matters are directly relevant to the FBI. My 
question is, when it comes to illicit Russian money and in 
particular its potential to be laundered on its way to the 
United States, what should the Committee be most concerned 
about?
    We hear stories about Deutschebank, Bank of Cyprus, shell 
companies in Moldova, the British Virgin Islands. I'd like to 
get your sense, because I'm over my time, Director McCabe. What 
should we be most concerned about with respect to illicit 
Russian money and its potential to be laundered on its way to 
the United States?
    Director McCabe. Certainly, sir. As you know, I am not in a 
position to be able to speak about specific investigations and 
certainly not in this setting. However, I will confirm for you 
that those are issues that concern us greatly. They have 
traditionally and they do even more so today. As it becomes 
easier to conceal the origin and the track and the destination 
and purpose of illicit money flows, as the exchange of 
information becomes more clouded in encryption and more obtuse, 
it becomes harder and harder to get to the bottom of those 
investigations that would shed light on those issues.
    Senator Wyden. Thank you, Mr. Chairman.
    Vice Chairman Warner [presiding]. Senator Risch.
    Senator Risch. Thank you very much.
    Gentlemen, the purpose of this hearing, as the Chairman 
expressed, is to give the American people some insight into 
what we all do which they don't see pretty much at all. So I 
think what I want to do is I want to make an observation and 
then I want to get your take on it, anybody who wants to 
volunteer, and I'm going to start with you, Director Coats, as 
a volunteer.
    I've been on this Committee all the time I've been here in 
the Senate and all through the last Administration, and I have 
been greatly impressed by the current Administration's hitting 
the ground running during the first 100 days as far as their 
engagement on intelligence matters and their engagement with 
foreign countries.
    The national media here is focused on domestic issues, 
which is of great interest to the American people, be it health 
care, be it personnel issues in the government, and they 
don't--the media isn't as focused on this Administration's 
fast, and in my judgment, robust engagement with the 
intelligence communities around the world and with other 
governments.
    My impression is that it's good and it is aggressive. I'd 
like your impression of where we're going. Almost all of you 
had real engagement in the last Administration. All 
administrations are different. Director Coats, do you want to 
take that on to start with?
    Director Coats. I'd be happy to start with that. I think 
most Presidents that come into office come with an agenda in 
mind in terms of what issues they'd like to pursue, many of 
them issues that affect--domestic issues that affect 
infrastructure, education, a number of things, only to find 
that this is a dangerous world, that the United States--the 
threats that exist out there need to be given attention to.
    This President, who I think the perception was not 
interested in that--I think Director Pompeo and I can certify 
the fact that we have spent far more hours in the Oval Office 
than we anticipated. The President is a voracious consumer of 
information and asking questions and asking us to provide 
intelligence. We are both part of a process run through the 
National Security Council, General McMaster, all through the 
deputies committees and the principals committees, consuming 
hours and hours and hours of time, looking at the threats, how 
do we address those threats, what is the intelligence that 
tells us, that informs the policymakers in terms of how they 
put a strategy in place.
    So what I initially thought would be a one or two time a 
week, 10 to 15-minute quick brief has turned into an every day, 
sometimes exceeding 45 minutes to an hour or more just in 
briefing the President. I have brought along several of our 
directors to come and show the President what their agencies do 
and how important it is, the information they provide, for the 
basis of making policy decisions.
    I'd like to turn to my CIA colleague here to let him give 
you, and others, to give you their impression.
    Senator Risch. I appreciate that. We're almost out of time. 
But I did--Director Pompeo, you kind of sat in the same spot we 
all sit in through the last several years. I'd kind of like 
your observations along the line of Director Coats.
    Director Pompeo. I think Director Coats had it right. He 
and I spend time with the President every day briefing him on 
the most urgent intelligence matters that are presented to us 
in our roles. He asks good hard questions, makes us go make 
sure we're doing our work in the right way.
    Second, you asked about engagement in the world. This 
Administration has reentered the battle space in places that 
the previous administration was completely absent. You all 
travel some, too.
    Senator Risch. Yes.
    Director Pompeo. You will hear that when you go travel. I 
have now taken two trips to places and they welcome American 
leadership. They're not looking for American soldiers. They're 
not looking for American boots on the ground. They're looking 
for American leadership around the globe. And this President 
has reentered that space in a way that I think will serve 
America's interests very well.
    Senator Risch. I couldn't agree more. We deal with them not 
only overseas, but they come here, as you know, regularly.
    Director Pompeo. Yes, sir.
    Senator Risch. And the fact that the President has pulled 
the trigger twice as he has in the first 100 days, and done it 
in a fashion that didn't start a world war, and was watched by 
both our friends and our enemies, has made a significant and a 
huge difference as far as our standing in the world.
    My time is up. Thank you very much, Mr. Chairman.
    Vice Chairman Warner. Thank you, Senator.
    Senator Heinrich.
    Senator Heinrich. Director McCabe, you obviously have 
several decades of law enforcement experience. Is it your 
experience that people who are innocent of wrongdoing typically 
need to be reassured that they're not the subject of an 
investigation?
    Director McCabe. No, sir.
    Senator Heinrich. I ask that because I'm still trying to 
make heads or tails of the dismissal letter from earlier this 
week from the President, where he writes: ``While I greatly 
appreciate you informing me on three separate occasions that I 
am not under investigation.'' I'm still trying to figure out 
why that would even make it into a dismissal letter.
    But let me go to something a little more direct. Director, 
has anyone in the White House spoken to you directly about the 
Russia investigation?
    Director McCabe. No, sir.
    Senator Heinrich. When did you last meet with the 
President, Director McCabe?
    Director McCabe. I don't think I'm going to comment on 
that.
    Senator Heinrich. Was it earlier this week?
    Director McCabe. I have met with the President this week, 
but I don't really want to go into the details of that.
    Senator Heinrich. But Russia did not come up?
    Director McCabe. That's correct, it did not.
    Senator Heinrich. Thank you.
    We've heard in the news claims that Director Comey had lost 
the confidence of rank and file FBI employees. You've been 
there for 21 years. In your opinion, is it accurate that the 
rank and file no longer supported Director Comey?
    Director McCabe. No, sir, that is not accurate. I can tell 
you, sir, that I worked very, very closely with Director Comey 
from the moment he started at the FBI. I was his Executive 
Assistant Director of National Security at that time; then 
worked for him running the Washington Field Office; and of 
course I've served as Deputy for the last year.
    I can tell you that I hold Director Comey in the absolute 
highest regard. I have the highest respect for his considerable 
abilities and his integrity, and it has been the greatest 
privilege and honor of my professional life to work with him.
    I can tell you also that Director Comey enjoyed broad 
support within the FBI and still does to this day. We are a 
large organization. We are 36,500 people across this country, 
across this globe. We have a diversity of opinions about many 
things. But I can confidently tell you that the majority, the 
vast majority, of FBI employees enjoyed a deep and positive 
connection to Director Comey.
    Senator Heinrich. Thank you for your candor.
    Do you feel like you have the adequate resources for the 
existing investigations that the Bureau is invested in right 
now to follow them wherever they may lead?
    Director McCabe. Sir, if you're referring to the Russia 
investigation, I do. I believe we have the adequate resources 
to do it and I know that we have resourced that investigation 
adequately.
    If you're referring to the many constantly multiplying 
counterintelligence threats that we face across the spectrum, 
they get bigger and more challenging every day and resources 
become an issue over time. But in terms of that investigation, 
sir, I can assure you we are covered.
    Senator Heinrich. Thank you.
    Director Coats, welcome back. Would you agree that it is a 
national security risk to provide classified information to an 
individual who has been compromised by a foreign government, as 
a broad matter?
    Director Coats. As a broad matter, yes.
    Senator Heinrich. If the Attorney General came to you and 
said one of your employees was compromised, what sort of action 
would you take?
    Director Coats. I would take the action as prescribed in 
our procedures relative to how we report this and how it is 
processed. It's a serious issue. I would be consulting with our 
legal counsel and consulting with our inspector general and 
others as to how best to proceed with this. But obviously we 
would take action.
    Senator Heinrich. Would one of the options be dismissal, 
obviously?
    Director Coats. That very potentially could be a dismissal, 
yes.
    Senator Heinrich. Thank you, Director.
    Vice Chairman Warner. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman or Mr. Vice 
Chairman.
    Mr. McCabe, is the agent who is in charge of this very 
important investigation into Russian attempts to influence our 
elections last fall still in charge?
    Director McCabe. We have many agents involved in the 
investigation at many levels. So I'm not sure who you're 
referring to here.
    Senator Collins. The lead agent overseeing the 
investigation.
    Director McCabe. Certainly almost all of the agents 
involved in the investigation are still in their positions.
    Senator Collins. So has there been any curtailment of the 
FBI's activities in this important investigation since Director 
Comey was fired?
    Director McCabe. Ma'am, we don't curtail our activities. As 
you know, are people experiencing questions and are reacting to 
the developments this week? Absolutely. Does that get in the 
way of our ability to pursue this or any other investigation? 
No, ma'am. We continue to focus on our mission and get that job 
done.
    Senator Collins. I want to follow up on a question of 
resources that Senator Heinrich asked your opinion on. Press 
reports yesterday indicated that Director Comey requested 
additional resources from the Justice Department for the 
Bureau's ongoing investigation into Russian active measures. 
Are you aware of that request? Can you confirm that that 
request was in fact made?
    Director McCabe. I cannot confirm that request was made. As 
you know, ma'am, when we need resources we make those requests 
here. So I'm not aware of that request and it's not consistent 
with my understanding of how we request additional resources.
    That said, we don't typically request resources for an 
individual case. As I mentioned, I strongly believe that the 
Russia investigation is adequately resourced.
    Senator Collins. You've also been asked a question about 
target letters. Now, it's my understanding that when an 
individual is the target of an investigation, at some point a 
letter is sent out notifying the individual that he is a 
target. Is that correct?
    Director McCabe. No, ma'am, I don't believe that's correct.
    Senator Collins. So before there is going to be an 
indictment there is not a target letter sent out by the Justice 
Department?
    Director McCabe. Not that I'm aware of.
    Senator Collins. That's contrary to my understanding. But 
let me ask you the reverse----
    Director McCabe. Again, I'm looking at it from the 
perspective of the investigators. So that's not part of our 
normal case investigative practice.
    Senator Collins. That would be the Justice Department, 
though, the Justice Department.
    Director McCabe. Yes, ma'am. I see.
    Senator Collins. I'm asking you, isn't it standard practice 
when someone is the target of an investigation and is perhaps 
on the verge of being indicted that the Justice Department 
sends that individual what is known as a target letter?
    Director McCabe. Ma'am, I'm going to have to defer that 
question to the Department of Justice.
    Senator Collins. Well, let me ask you the flip side of 
that, and perhaps you don't know the answer to this question. 
But is it standard practice for the FBI to inform someone that 
they are not a target of an investigation?
    Director McCabe. It is not.
    Senator Collins. So it would be unusual and not standard 
practice for there to have been a notification from the FBI 
Director to President Trump or anyone else involved in this 
investigation, informing him or her that that individual is not 
a target, is that correct?
    Director McCabe. Again ma'am, I'm not going to comment on 
what Director Comey may or may not have done.
    Senator Collins. I'm not asking you to comment on the facts 
of the case. I'm just trying to figure out what's standard 
practice and what's not.
    Director McCabe. Yes ma'am. I'm not aware of that being a 
standard practice.
    Senator Collins. Admiral Rogers, I want to follow up on 
Senator Warner's question to you about the attempted 
interference in the French election. Some researchers, 
including the cyber intelligence firm Flashpoint, claim that 
APT28 is the group that was behind the stealing of and the 
leaking of the information about the President-elect of France. 
The FBI and DHS have publicly tied APT28 to Russian 
intelligence services in the joint analysis report last year 
after the group's involvement in stealing data that was leaked 
in the run-up to the U.S. elections in November.
    Is the IC in a position to attribute the stealing and the 
leaking that took place prior to the French election to be the 
result of activities by this group, which is linked to Russian 
cyber activity?
    Admiral Rogers. Again, ma'am, right now I don't think I 
have a complete picture of all the activity associated with 
France. But as I have said publicly both today and previously, 
we are aware of specific Russian activity directed against the 
French election cycle in the course particularly of the last 
few weeks, to the point where we felt it was important enough 
we actually reached out to our French counterparts to inform 
them and make sure they had awareness of what we were aware of 
and also to ask them, is there something we are missing that 
you are seeing?
    Senator Collins. Thank you.
    Chairman Burr. Senator King.
    Senator King. Mr. McCabe, thank you for being here today 
under somewhat difficult circumstances. We appreciate your 
candor in your testimony.
    On March 20th, Director Comey--then-Director Comey 
testified to the House of Representative: ``I have been 
authorized by the Department of Justice to confirm that the 
FBI, as part of our counterintelligence mission, is 
investigating the Russian government's efforts to interfere in 
the 2016 presidential election and that includes investigating 
the nature of any links between individuals associated with the 
Trump campaign and the Russian government and whether there was 
any coordination between the campaign and Russian efforts. As 
with any counter intelligence investigation, this will also 
include an assessment of whether any crimes were committed.'' 
Is that statement still accurate?
    Director McCabe. Yes, sir, it is.
    Senator King. And how many agents are assigned to this 
project? How many--or personnel generally within the FBI, 
roughly?
    Director McCabe. Sir, I can't really answer those sorts of 
questions in this forum.
    Senator King. Well, yesterday a White House press spokesman 
said that this is one of the smallest things on the plate of 
the FBI. Is that an accurate statement?
    Director McCabe. It is----
    Senator King. Is this a small investigation in relation to 
all--to all the other work that you're doing?
    Director McCabe. Sir, we consider it to be a highly 
significant investigation.
    Senator King. So you would not characterize it as one of 
the smallest things you're engaged in?
    Director McCabe. I would not.
    Senator King. Thank you.
    Let me change the subject briefly. We're--we've been 
talking about Russia and--and their involvement in this 
election. One of the issues of concern to me, and perhaps I can 
direct this to--well, I'll direct it to anybody in the panel. 
The allegation of Russian involvement in our electoral systems, 
is that an issue that is of concern and what do we know about 
that? And is that being followed up on by this investigation?
    Mr. McCabe, is that part of your investigation? Now, I'm--
I'm not talking about the presidential election. I'm talking 
about State-level election infrastructure.
    Director McCabe. Yes, sir. So obviously not discussing any 
specific investigation in detail, the issue of Russian 
interference in the U.S. democratic process is one that causes 
us great concern. And quite frankly, it's something that we've 
spent a lot of time working on over the past several months. 
And to reflect comments that were made in response to an 
earlier question that Director Coats handled, I think part of 
that process is to understand the inclinations of our foreign 
adversaries to interfere in those areas.
    So we've seen this once; we are better positioned to see it 
the next time. We're able to improve not only our coordination 
with--primarily through the Department of Homeland--through 
DHS, their--their expansive network, and to the State and local 
election infrastructure, but to interact with those folks to 
put them in a better position to defend against whether it's 
cyber attacks or any sort of influence-driven interactions.
    Senator King. Thank you. I think that's a very important 
part of this issue.
    Admiral Rogers, yesterday a camera crew from Tass was 
allowed into the Oval Office. There was no any American press 
allowed. Was there any consultation with you with regard to 
that action in terms of the risk of some kind of cyber 
penetration or communications in that incident?
    Admiral Rogers. No.
    Senator King. Were you--you were--your agency wasn't 
consulted in any way?
    Admiral Rogers. Not that I'm aware of. I wouldn't expect 
that to automatically be the case. But no, not that I'm aware 
of.
    Senator King. Did it raise any concerns when you saw those 
pictures that those cameramen and crew were in the Oval Office 
without----
    Admiral Rogers. I'll be honest. I wasn't aware of where the 
images came from.
    Senator King. All right, thank you.
    Mr. Coats, Director Coats, you lead the intelligence 
community. Were you consulted at all with regard to the firing 
of Director Comey?
    Director Coats. I was not.
    Senator King. So you had no--there were no discussions with 
you even though the FBI's an important part of the intelligence 
community?
    Director Coats. There were no discussions.
    Senator King. Thank you.
    Mr. Chairman, thank you.
    Chairman Burr. Thank you, Senator King.
    Senator Lankford.
    Senator Lankford. Thank you.
    Let me just run through some quick questions on this. 
Director McCabe, thanks for being here as well. Let me hit some 
high points of some of the things that I've heard already, just 
to be able to confirm. You have the resources you need for the 
Russia investigation, is that correct?
    Director McCabe. Sir, we believe it's adequately resourced.
    Senator Lankford. Okay, so there's not limitations on 
resources? You have what you need? The--the actions about Jim 
Comey and his release has not curtailed the investigation from 
the FBI? It's still moving forward?
    Director McCabe. The investigation will move forward, 
absolutely.
    Senator Lankford. No agents have been removed that are the 
ongoing career folks that are doing the investigation?
    Director McCabe. No, sir.
    Senator Lankford. Is it your impression at this point that 
the FBI is unable to complete the investigation in a fair and 
expeditious way because of the removal of Jim Comey?
    Director McCabe. It is my opinion and belief that the FBI 
will continue to pursue this investigation vigorously and 
completely.
    Senator Lankford. Do you need somebody to take this away 
from you and somebody else to do?
    Director McCabe. No sir.
    Senator Lankford. Okay. Let me ask you a separate question. 
As I go through the report tracking through the worldwide 
threats that were put out, that Director Coats put out, there's 
a section on it on narcotics and the movement of illegal drugs. 
And there's a section on it about tens of thousands of illegal 
pharmacies that are online at this point distributing 
narcotics. And 18 to 20 of those go online a day still.
    Can you help me understand a little more about what the FBI 
is doing to be able to interdict, to be able to engage? How 
many of those are American? How many of those are 
international, and what we can do to be able to stop the 
movement of narcotics through our mail system?
    Director McCabe. Yes, yes, sir. It's a great question and 
one that we spend a great deal of time on. As you know, the 
traffic of illegal narcotics is something that we, along with 
our partners at the DEA and other law and Federal, State, and 
local law enforcement partners have focused on for many years. 
We've had great success.
    But the issue, the threat continues to change, continues to 
develop and confront us in new ways. The profusion of illegal 
online pharmacies is certainly one of those ways. And quite 
frankly, it's something that we are learning more about, 
spending more time on every day.
    Senator Lankford. Well, I'm glad that it is highlighted in 
the report. With tens of thousands of these pharmacies that are 
out there in the distribution systems, it's no longer a drug 
dealer on the corner anymore. They just deliver it to your 
house now and there's a whole different set of issues that we 
aggressively need to address on this.
    Director Coats, I have a--I have a question for you. We've 
talked often about a cyber doctrine and it's one of the issues 
that keeps being raised that other nations and nation-states 
and actors need to understand what our boundaries are and how 
we're going to do this. This seems to be talked to death and 
everyone that I raise it with says yes, it needs to occur.
    What I need to know is, who has the ball on leading out to 
make sure a year from now we're not talking about we need to 
get a cyber doctrine? I guess specifically, when we do this 
hearing next year who should we hold accountable if we don't 
have a cyber doctrine?
    Director Coats. Well, that's a very good question. I think 
all of us would agree we need a cyber doctrine because clearly 
it is one of the top, if not the number one threat today, that 
we're dealing with. As you know, the President tasked an effort 
under the direction of former Mayor Giuliani with this. That 
has not led to a conclusion at this particular point in time. I 
don't have the details on that.
    I would agree with you, however, that this is a threat that 
our policymakers need to--need to address. I'm hoping that when 
we are here next year, we will have a solid response to your 
question, but at this particular point in time, frankly, given 
the proliferation of issues that we're trying to deal with, 
it's almost overwhelming getting our hands on all of them.
    Senator Lankford. And it is and that's been there are just 
so many things that are flying around, this keeps getting left, 
and it has been for years, been left. And what we need to try 
to figure out is how do we actually find out who's got the ball 
and who do we hold to account to be able to help us work 
through this or is this something that we need to be able to 
work through?
    I noticed as I read through your report, which was 
excellent by the way, on all the worldwide threats, every 
single section of your report, every section of it, had a 
section on Iran, every part of it, that there was a threat. In 
fact, in one section of it you wrote ``Iran continues to be the 
foremost state sponsor of terrorism.''
    Whether it was cyber, whether it is active terrorism, 
whether it is involvement in every different nefarious action, 
it seems to always circle back to Iran at some point in some 
way of facilitating this. So this is one of those areas that 
we've got to be able to figure out how to be able to deal with.
    Just in a broad question on it, and maybe, General Stewart, 
you'd be the right one to be able to deal with this, but anyone 
could--could answer this. My concern is that when we're dealing 
with Syria the focus seems to be on Russia in Syria or ISIS in 
Syria and we're losing track of the movement of Iran through 
Iraq into Syria. We're losing track of what's happening in 
Yemen and other places.
    What is your perception of Iran's goal through the Middle 
East? Is their goal higher for Yemen or is it higher going into 
Syria and into Iraq and to be able to occupy and stay? And is 
the perception that the Russians want to remain there or Iran 
wants to remain in Syria and be the dominant force there?
    General Stewart. Clearly, Iran views themselves as the 
regional--the dominant regional power. They will continue to 
use militia forces and asymmetric forces to achieve the aims of 
controlling large parts of the region. And if they can't 
control them physically, they tend to influence them 
politically. Syria becomes a very key strategic point for them. 
It allows them to leverage the Syrian forces, Lebanese, 
Lebanese Hezbollah, and move capability and forces across the 
region. They will be in competition, at some point, with 
Russia.
    Russia views themselves as the regional power, at least the 
dominant regional power today. I'm not sure that Russian and 
Iran's influence will remain aligned in the long term. In the 
near term they're very closely aligned as it relates to 
propping up and securing the Syrian regime.
    Senator Lankford. Thank you.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank all of you for being here. I really appreciate it. 
And I know that, Mr. McCabe, you seem to be of great interest 
of being here. And we're going to look forward to really 
hearing from all of you all in the closed hearing this 
afternoon, at which I think that we'll able to get into more 
detail. So I appreciate that.
    I have just one question for Mr. McCabe. It's basically the 
morale of the agency, the FBI agency and the morale basically 
starting back from July 5th to July 7th, October 28th, November 
6th, and Election Day. Did you all ever think you'd be 
embroiled in an election such as this and did--what did it do 
to the morale?
    Director McCabe. Well, I--I don't know that anyone 
envisioned exactly the way these things would develop. You 
know, as I said earlier, Senator, we are a large organization. 
We are--we have a lot of diversity of opinions and--and 
viewpoints on things. We are also a fiercely independent group.
    Senator Manchin. I'm just saying that basically before July 
5th, before the first testimony that basically Director Comey 
got involved in, prior to that, did you see a change in the 
morale? Just a yes or no, yes a change, more anxious, more 
concern?
    Director McCabe. I think morale has always been good. 
However, we had--there were folks within our agency who were 
frustrated with the outcome of the Hillary Clinton case and 
some of those folks were very vocal about those concerns.
    Senator Manchin. I'm sure we'll have more questions in the 
closed hearing, sir. But let me say to the rest of you all, we 
talked about Kaspersky, the lab, KL Lab. Do you all--has it 
risen to your level, being the head of all of our intelligence 
agencies and people that are mostly concerned about the 
security of our country, of having a Russian connection in a 
lab as far outreaching as KL Labs?
    Has it come with your IT people coming to you or have you 
gone directly to them making sure that you have no interaction 
with KL or any of the contractors you do business with? Just 
down the line there. Mr. Cardillo?
    Director Cardillo. Well, we count on the expertise of 
Admiral Rogers and the FBI to protect our systems and so I 
value----
    Senator Manchin. But you have IT--you have IT people, 
right?
    Director Cardillo. Absolutely.
    Senator Manchin. Have you talked to the IT people? Has it 
come to your concern that there might be a problem?
    Director Cardillo. I'm aware of the Kaspersky Lab challenge 
and/or threat.
    Senator Manchin. Let me tell you, it's more of a 
challenge--more than a challenge, sir. And I would hope that--
I'll go down the line, but I hope that all of you--we are very 
much concerned about this, very much concerned about security 
of our country and their involvement.
    Director Cardillo. We share that.
    Senator Manchin. General.
    General Stewart. We are tracking Kaspersky and their 
software. There is, as well as I know, and I've checked this 
recently, no Kaspersky software on our networks.
    Senator Manchin. Any contractors?
    General Stewart. Now, the contractor piece might be a 
little bit harder to define, but at this point we see no 
connection to Kaspersky in contractors supporting our IT----
    Senator Manchin. Admiral Rogers.
    Admiral Rogers. I'm personally aware and involved as the 
Director of the National Security Agency of Kaspersky Lab 
issue, yes, sir.
    Director Coats. It wasn't that long ago I was sitting up 
there talking, raising issues about Kaspersky and its position 
here. And that continues in this new job.
    Director Pompeo. It has risen to the Director of the CIA as 
well, Senator Manchin.
    Senator Manchin. Great.
    Director McCabe. We're very concerned about it, sir, and we 
are focused on it closely.
    Senator Manchin. The only thing I would ask all of you, if 
you can give us a report back if you've swept all of your 
contractors to make sure they understand the certainty you 
have, concern that you have, about this, and making sure that 
they can verify to you all that they're not involved whatsoever 
with any Kaspersky hardware.
    I'm going to switch to a couple different things because of 
national security. But you know, the violent gangs that we have 
in the United States, and I know--we don't talk about them 
much. And when you talk about you have MS-13, the Crips, you've 
got Hells Angels, Aryan Brotherhood, it goes on and on and on, 
it's quite a few.
    What is are we doing and what is it to your level--has it 
been brought to your level the concern we have with these gangs 
within our country, really every part of our country? Anybody 
on the gangland?
    Director McCabe. Yes sir. We spend a lot of time talking 
about that at the FBI. It's one of our highest priorities.
    Senator Manchin. Do you have the resources to go after each 
one of these? Because they're interspersed all over the 
country.
    Director McCabe. We do, sir. We have been focused on the 
gang threat for many years. It, much like the online pharmacy 
threat, it continues to change and develop. We think it's 
likely having an impact on some of the elevated violent crime 
rates we see across the country, so we're spending a lot of 
time focused on that.
    Senator Manchin. One last question real quick--my time is 
running out--is on rare earth elements. I'm understanding ever 
since the closure of the California, which is the Mountain Pass 
mine, which was the last mine that we had that was giving us a 
domestic source of rare earth elements, that's been closed and 
now we're 100 percent dependent of foreign, on basically 
foreign purchases of rare earth elements for what we need every 
day to run this country.
    We don't do any of it in this country anymore. And most of 
it comes from China. Do any of you have a concern about that?
    Director Pompeo. Senator Manchin, I'll speak to that. Yes, 
we're concerned. We are--we do a lot of work to figure out 
where they are and help the intelligence community--help the 
policy community shape policy surrounding how we ought to treat 
this issue. But it's a very--it's a very real concern, and it 
obviously depends on the element. But we use them for important 
technologies that keep us all safe, those very rare earth 
elements.
    Senator Manchin. Let me just say that I--it's been told to 
me that the Department of Defense needs about 800 tons of rare 
earth elements per year, and I want to make sure that you know, 
West Virginia has the opportunity to provide this country with 
the rare earth elements it has because of our mining process 
and all of that that we have extracted through the mining 
process. We are happy to come to aid, sir.
    Director Pompeo. Thank you, Senator.
    Chairman Burr. Thank you, Senator Manchin.
    Before I turn to Senator Cotton, can I say for members, the 
Vice Chair and I have to step out for a meeting that we can't 
push off. I would ask Senator Harris, Senator Cotton, to 
complete their first round of questions. Any member that seeks 
additional questions will be recognized by the Chair. I would 
ask you to limit those questions, if you can, but the Chair 
will ask--will say we're not going over five minutes for the 
second round of questions.
    It is my hope that we will give sufficient time to these 
six gentlemen to have some nutrition before we reconvene at 
1:30 in 219. It's my understanding that there will be a vote 
circa 2:00, and we will decide exactly how we handle that. But 
the closed hearing, we like to make sure that nobody misses 
anything, so we--we might slightly adjust what we are doing.
    Senator Wyden. Mr. Chairman, just an inquiry, and I 
appreciate your thoughtfulness. So in your departure, as we 
work through it, it's still acceptable to begin another five-
minute round for those----
    Chairman Burr. Up to five minutes.
    Senator Wyden. Thank you.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Inmates are running the asylum.
    [Laughter.]
    So, I think everyone here in this room and most Americans 
have come to appreciate the aggressiveness with which Russia 
uses active measures or covert influence operations, 
propaganda, call them whatever you will, as your agencies 
assess they did in 2016, and hacking into those e-mails and 
releasing them, as news reports suggest they did, in the French 
election last week.
    That's one reason why I sought to revive the Russian Active 
Measures Working Group in the FY17 Intelligence Authorization 
Act.
    These activities, though, go far beyond elections, I think, 
as most of our witnesses know. Former Director of the CIA, Bob 
Gates in his memoir ``From the Shadows,'' detailed Soviet 
covert influence campaigns designed to slow or thwart the U.S. 
development of nuclear delivery systems and warheads, missile 
defense systems, and deployment of Intermediate-range Nuclear 
Forces systems to Europe.
    Specifically, on page 260 of his memoir, he writes: 
``During the period the Soviets mounted a massive covert action 
operation aimed at thwarting INF deployments by NATO. We at CIA 
devoted tremendous resources to an effort at the time to 
uncovering this Soviet covert campaign. Director Casey 
summarized this extraordinary effort in a paper he sent to 
Bush, Schultz, Weinberger, and Clark on January 18, 1983. We 
later published it and circulated it widely within the 
government and to the allies, and finally provided an 
unclassified version for the public to use.'' End quote.
    I'd like to thank the CIA for digging up this unclassified 
version of the document and providing it to the Committee, 
``Soviet Strategy to Derail U.S. INF Deployment,'' specifically 
undermining NATO's solidarity in those deployments. I ask 
unanimous consent that it be included as part of the hearing 
transcript and, since the inmates are running the asylum, 
hearing no objection, we'll include it in the transcript.
    [Laughter.]
    [The material referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Cotton. Director Pompeo, earlier this year, Dr. Roy 
Godson testified that he believed that Russia was using active 
measures and covert influence efforts to undermine our nuclear 
modernization efforts, our missile defense deployments, and the 
INF Treaty in keeping with these past practices.
    To the best of your ability in this setting, would you 
agree with the assessment that Russia is likely using such 
active measures to undermine U.S. nuclear modernization efforts 
and missile defenses?
    Director Pompeo. Yes.
    Senator Cotton. Thank you.
    As I mentioned earlier, the FY17 Intelligence Authorization 
Act included two unclassified provisions that I authored. One 
would be re-starting that old Active Measures Working Group. A 
second would require additional scrutiny of Russian embassy 
officials who travel more than the prescribed distance from 
their duty station, whether it's their embassy or a consulate 
around the United States.
    In late 2016, when that bill was on the verge of passing, I 
personally received calls from high-ranking Obama 
administration officials asking me to withdraw them from the 
bill. I declined. The bill did not pass. It passed last week as 
part of the FY17 spending bill.
    I did not receive any objection from Trump administration 
officials, to include from our intelligence community. Director 
Coats, are you aware of any objection that the Trump 
administration had to my two provisions?
    Director Coats. No, I'm not aware of any objection.
    Senator Cotton. Director Pompeo.
    Director Pompeo. None.
    Senator Cotton. Do you know why the Obama administration 
objected to those two provisions in late 2016, I would add, 
after the 2016 presidential election?
    Director Coats. Well, it would be pure speculation. I 
don't--I couldn't read--I wasn't able to read the President's 
mind then and I don't think I can read it now.
    Senator Cotton. Thank you.
    I'd like to turn my attention to a very important provision 
of law I know that you've discussed earlier, Section 702. 
Director Rogers, it's my understanding that your agency is 
undertaking an effort to try to release some kind of 
unclassified estimate of the number of U.S. persons who might 
have been incidentally collected using 702 techniques. Is that 
correct?
    Admiral Rogers. Sir, we're looking to see if we can 
quantify something that's of value to people outside the 
organization.
    Senator Cotton. Would that require you going in and 
conducting searches of incidental collection that have been 
previously unexamined?
    Admiral Rogers. That's part of the challenge, how do I 
generate insight that doesn't in the process of generating the 
insight violate the actual tenets that----
    Senator Cotton. So you're trying to produce an estimate 
that is designed to protect privacy rights, but to produce that 
estimate you're going to have to violate privacy rights?
    Admiral Rogers. That is a potential part of all of this.
    Senator Cotton. It seems hard to do.
    Admiral Rogers. Yes, sir. That's why it has taken us a 
period of time and that's why we're in the midst of a dialogue.
    Senator Cotton. Is it going to be possible to produce that 
kind of estimate without some degree of inaccuracy or 
misleading information or infringing upon the privacy rights of 
Americans?
    Admiral Rogers. Probably not.
    Senator Cotton. If anyone in your agency or, for that 
matter, Director McCabe, in yours, believes that there is 
misconduct or privacy rights are not being protected, they 
could, I believe under current law, come to your inspector 
general, come to your general counsel. I assume you have open 
door policies?
    Admiral Rogers. Whistleblower protections in addition, yes, 
sir, and they can come to you.
    Senator Cotton. And they can come to this Committee.
    Admiral Rogers. They can come to the Committee.
    Senator Cotton. So four--at least four different avenues--
I'm probably missing some--if they believe there are any abuses 
in the Section 702 program.
    Director McCabe. And anyone in their chain of command.
    Senator Cotton. I would ask that we proceed with caution 
before producing a report that might infringe on Americans' 
privacy rights needlessly and that might make it even that much 
harder to reauthorize a critical program, something that, 
Director McCabe, your predecessor last week just characterized, 
if I can paraphrase, as a must-have program, not a nice-to-have 
program.
    Thank you.
    Senator Risch. Thank you, Senator Cotton.
    Senator Harris.
    Senator Harris. Thank you.
    Acting Director McCabe, welcome. I know you've been in this 
position for only about 48 hours and I appreciate your candor 
with this Committee during the course of this open hearing.
    Director McCabe. Yes, ma'am.
    Senator Harris. Until this point what was your role in the 
FBI's investigation into the Russian hacking of the 2016 
election?
    Director McCabe. I've been the Deputy Director since 
February of 2016. So I've had an oversight role over all of our 
FBI operational activity, to include that investigation.
    Senator Harris. And now that you're Acting Director, what 
will your role be in the investigation?
    Director McCabe. Very similar, senior oversight role to 
understand what our folks are doing and make sure they have the 
resources they need and are getting the direction and the 
guidance they need to go forward.
    Senator Harris. Do you support the idea of a special 
prosecutor taking over the investigation in terms of oversight 
of the investigation, in addition to your role?
    Director McCabe. Ma'am, that is a question for the 
Department of Justice and it wouldn't be proper for me to 
comment on that.
    Senator Harris. From your understanding, who at the 
Department of Justice is in charge of the investigation?
    Director McCabe. The Deputy Attorney General, who serves as 
Acting Attorney General for that investigation. He is in 
charge.
    Senator Harris. And have you had conversations with him 
about the investigation since you've been in this role?
    Director McCabe. I have. Yes, ma'am.
    Senator Harris. And when Director Comey was fired, my 
understanding is he was not present in his office. He was 
actually in California. So my question is: Who was in charge of 
securing his files and devices when that--when that information 
came down that he had been fired?
    Director McCabe. That's our responsibility, ma'am.
    Senator Harris. And are you confident that his files and 
his devices have been secured in a way that we can maintain 
whatever information or evidence he has in connection with the 
investigation?
    Director McCabe. Yes, ma'am, I am.
    Senator Harris. It's been widely reported, and you've 
mentioned this, that Director Comey asked Rosenstein for 
additional resources. And I understand that you're saying that 
you don't believe that you need any additional resources?
    Director McCabe. For the Russia investigation, ma'am, I 
think we are adequately resourced.
    Senator Harris. And will you commit to this committee that 
if you do need resources, that you will come to us, 
understanding that we would make every effort to get you what 
you need?
    Director McCabe. I absolutely will.
    Senator Harris. Has--I understand that you've said that the 
White House--that you have not talked with the White House 
about the Russia investigation. Is that correct?
    Director McCabe. That's correct.
    Senator Harris. Have you talked with Jeff Sessions about 
the investigation?
    Director McCabe. No, ma'am.
    Senator Harris. Have you talked with anyone other than Rod 
Rosenstein at the Department of Justice about the 
investigation?
    Director McCabe. I don't believe I have, not recently; 
obviously, not in that--not in this position.
    Senator Harris. Not in the last 48 hours?
    Director McCabe. No, ma'am.
    Senator Harris. Okay. What protections have been put in 
place to assure that the good men and women of the FBI 
understand that they will not be fired if they aggressively 
pursue this investigation?
    Director McCabe. Yes, ma'am. So we have very active lines 
of communication with the team that's--that's working on this 
issue. They have some exemplary and incredibly effective 
leaders that they work directly for. And I am confident that 
those--that they understand and are confident in their position 
moving forward on this investigation, as my investigators and 
analysts and professional staff are in everything we do every 
day.
    Senator Harris. And I agree with you. I have no question 
about the commitment that the men and women of the FBI have to 
pursue their mission. But will you commit to me that you will 
directly communicate in some way--now that these occurrences 
have happened and Director Comey has been fired, will you 
commit to me that, given this changed circumstance, that you 
will find a way to directly communicate with those men and 
women to assure them that they will not be fired simply for 
aggressively pursuing this investigation?
    Director McCabe. Yes, ma'am.
    Senator Harris. Thank you.
    And how do you believe we need to handle, to the extent 
that it exists, any crisis of confidence in the leadership of 
the FBI, given the firing of Director Comey?
    Director McCabe. I don't believe there is a crisis of 
confidence in the leadership of the FBI. I suppose that's 
somewhat self-serving, and I apologize for that.
    [Laughter.]
    You know, it was completely within the President's 
authority to take the steps that he did. We all understand 
that. We expect that he and the Justice Department will work to 
find a suitable replacement and a permanent director, and we 
look forward to supporting whoever that person is, whether they 
begin as an interim director or a permanently selected 
director. This organization in its entirety will be completely 
committed to helping that person get off to a great start and 
do what they need to do.
    Senator Harris. And do you believe that there will be any 
pause in the investigation during this interim period, where we 
have a number of people who are in acting positions of 
authority?
    Director McCabe. No, ma'am. That is my job right now, to 
ensure that the men and women who work for the FBI stay focused 
on the threats, stay focused on the issues that are of so much 
importance to this country, continue to protect the American 
people, and uphold the Constitution. And I will ensure that 
that happens.
    Senator Harris. I appreciate that. Thank you.
    Director McCabe. Yes, ma'am.
    Chairman Burr. Thank you.
    Senator King. Second round, five minutes each.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I want to go back to the question I asked you, Director 
Pompeo. And I went out and reviewed the response that you gave 
to me. And of course, what I'm concerned about is the Sally 
Yates warning to the White House that Michael Flynn could be 
blackmailed by the Russians.
    And you said you didn't have any first-hand indication of 
it. Did you have any indication--second-hand, any sense at all 
that the national security adviser might be vulnerable to 
blackmail by the Russians? That is a yes or no question.
    Director Pompeo. It's actually not a yes or no question, 
Senator. I can't answer yes or no. I regret that I'm unable to 
do so. You have to remember this is a counterintelligence 
investigation that was largely being conducted by the FBI and 
not by the CIA. We're a foreign intelligence organization.
    And I'll add only this. I was not intending to be clever by 
using the term ``first-hand.'' I had no second-hand or third-
hand knowledge of that conversation either.
    Senator Wyden. So with respect to the CIA, were there any 
discussions with General Flynn at all?
    Director Pompeo. With respect to what, sir? He was for a 
period of time the National Security Adviser.
    Senator Wyden. Topics that could have put at risk the 
security and the well-being of the American people. I mean, I'm 
just finding it very hard to swallow that you all had no 
discussions with the National Security Adviser.
    Director Pompeo. I spoke with the National Security 
Adviser. He was the National Security Advisor. He was present 
for the daily brief on many occasions and we talked about all 
the topics we spoke to the President about.
    Senator Wyden. But nothing relating to matters that could 
have compromised the security of the United States?
    Director Pompeo. Sir I can't recall every conversation that 
I had with General Flynn during that time period.
    Senator Wyden. We're going to ask more about it in closed 
session this afternoon.
    Admiral Rogers, let me ask you about a technical question 
that I think is particularly troubling and that is the SS7 
question and the technology threat. Last week the Department of 
Homeland Security published a lengthy study about the impact on 
the U.S. government of mobile phone security flaws. The report 
confirmed what I have been warning about for quite some time, 
which is the significance of cyber security vulnerabilities 
associated with a Signaling System 7.
    The report says that the Department believes, and I quote, 
``that all U.S. carriers are vulnerable to these exploits, 
resulting in risks to national security, the economy, and the 
Federal Government's ability to reliably execute national 
security functions. These vulnerabilities can be exploited by 
criminals, terrorists, and nation-state actors and foreign 
intelligence organizations.''
    Do you all share the concerns of the Department of Human--
the Homeland Security Department about the severity of these 
vulnerabilities and what ought to be done right now to get the 
government and the private sector to be working together more 
clearly and in a coherent plan to deal with these monumental 
risks. These are risks that we are going to face with 
terrorists and hackers and threats. And I think the Federal 
Communications Commission has been treading water on this and 
I'd like to see what you want to do to really take charge of 
this and deal with what is an enormous vulnerability to the 
security of this country?
    Admiral Rogers. Sure. I hear the concern. It's a widely 
deployed technology in the mobile segment. I share the concern. 
The Department of Homeland Security in their role kind of is 
the lead Federal agency associated with cyber and support from 
the Federal Government to the private sector, has overall 
responsibility here.
    We are trying to provide at the National Security Agency 
our expertise to help generate insights about the nature of the 
vulnerability, the nature of the problem, partnering with DHS, 
talking to the private sector. There's a couple specific things 
from a technology standpoint that we're looking at in multiple 
forms that the government has created partnering with the 
private sector.
    I'm not smart, I apologize, about all of the specifics of 
the DHS effort. I can take that for the record if you'd like.
    Senator Wyden. All right. I just want to respond before we 
break to Senator Cotton's comments with respect to Section 702. 
Mr. Director, glad to see my tax reform partner back in this 
role. You know, Mr. Director, that I think it's critical the 
American people know how many innocent law-abiding Americans 
are being swept up in the program.
    The argument that producing an estimate of the number is in 
itself a violation of privacy is I think a far-fetched 
argument. It has been made for years. I and others who believe 
that we can have security and liberty, that they're not 
mutually exclusive, have always believed that this argument 
that you're going to be invading people's privacy doesn't add 
up.
    We have to have that number. Are we going to get it? Are we 
going to get it in time so we can have a debate that shows that 
those of us who understand there are threats coming from 
overseas, and we support the effort to deal with those threats 
as part of 702, that we are not going to have Americans' 
privacy rights indiscriminately swept up.
    We need that number. When will we get it?
    Director Coats. Senator, as you recall, during my 
confirmation hearing we had this discussion. I promised to you 
that I would, if confirmed--and I was--go out to NSA, meet with 
Admiral Rogers, try to understand, better understand, why it 
was so difficult to come to a specific number. I did go out to 
NSA. I was hosted by Admiral Rogers. We spent significant time 
talking about that.
    And I learned of the complexity of reaching that number. I 
think the statements that had been made by Senator Cotton are 
very relevant statements as to that. Clearly, what I have 
learned is that a breach of privacy has to be made--against 
American people, have to be made in order to determine whether 
or not they breached privacy. So, there is a anomaly there. 
There are issues of duplication.
    I know that a--we're underway in terms of setting up a time 
with this Committee, I believe in June, as early as June, to 
address, get into that issue and to address that and talk 
through the complexity of why it's so difficult to say. This is 
specifically when we can get you the number and what the number 
is.
    So we are committed to a special meeting with the Committee 
to try to go through this, this particular issue. But I cannot 
give you a date because--and number, because I understand the 
complexity of it now and why it's so difficult for Admiral 
Rogers to say this specific number is the number.
    Senator Wyden. I'm well over my time. The point really is 
privacy advocates and technologists say that it's possible to 
get the number. If they say it and the government is not saying 
it, something is really out of sync. You've got people who want 
to work with you. We must get on with this and to have a real 
debate about 702 that ensures that security and liberty are not 
mutually exclusive, we have to have that number.
    Thank you, Mr. Chairman.
    Senator Risch. Thank you, Senator.
    Senator King, I understand you have a question.
    Senator King. Thank you, Senator.
    If this hearing had been held two weeks ago, we'd be 
spending the last two hours talking about North Korea. And I 
think we ought to pay some attention to that. Director Pompeo 
and Director Cardillo, could you give us an update on the North 
Korea situation, the nature of the threat, whether some of the 
pressure that we were feeling two and three and four weeks ago 
has relieved? Is there anything going on that should either 
concern or make us feel better about that situation?
    Director Pompeo.
    Director Pompeo. Senator, I don't see anything that should 
make any us feel any better about this threat. We have a threat 
from flashpoints that something could spark and have a 
conventional war, right, wholly apart from the issues we talk 
about with ICBMs and nuclear, just a well-armed adversary that 
our Department of Defense works hard to make sure and mitigate 
against. Those risks remain.
    The leader continues to develop, test, attempt to verify, 
not only in the launches that we see, many of which have 
failed, but learned from each one, but continue to develop 
software that improves day by day. This threat is very real.
    We should not all focus simply on the ICBMs either. 
American interests are held at risk today by shorter-range 
missiles in theater, enormous American assets.
    Senator King. Seoul is held at risk by artillery.
    Director Pompeo. Seoul is held at risk. We have enormous 
American interests in and around the region in Seoul.
    So, no, I wouldn't say that, in spite of the fact that it 
has fallen out of the headlines for the moment, that there's 
any decreased risk associated with the threat from Kim Jung Un.
    Senator King. There was some discussion after--again, about 
two weeks ago, of entering into some kind of discussions with 
the North Koreans. Has anything--can you report anything on 
that front?
    Director Pompeo. Sir, there are none that I'm aware of 
related to trying to talk Kim Jung Un away from his nuclear 
missile program. We have taken actions at the Agency. I've 
stood up a Korean Mission Center to draw the best minds, the 
most innovative, creative people from across our Agency, and 
I'm sure we'll have others join in from across the intelligence 
community, to try and focus this effort so that we can get back 
on our front foot with respect to foreign intelligence 
collection against the North Koreans and the capacity to impact 
what Kim Jung Un is actually doing.
    Senator King. On that latter point, would you agree that 
the path to influence is through China?
    Director Pompeo. I think it's among our most productive 
paths and one that I know the President's committed to working, 
as is Secretary Tillerson.
    Senator King. Thank you very much.
    Admiral Rogers----
    Director Cardillo. Senator King----
    Senator King. Yes, please.
    Director Cardillo. May I just chime in? I was in front of 
you in closed session a couple of weeks ago giving you great 
detail about the threat you've just highlighted. What you'll 
hear this afternoon is just the continuation of what I was 
briefing a couple of weeks ago.
    So I would agree with the Director that this is--this 
threat has not only been sustained, it's continued to grow.
    Senator King. Because it's fallen out of the headlines 
doesn't mean it's not----
    Director Cardillo. That's correct. It's still our highest 
priority.
    Senator King. Thank you.
    Director Coats. It is the highest priority, one of the 
highest, if not the highest, priority of the intelligence 
community at this time. A great deal of effort is being spent 
relative to how we can even better assess the situation and 
provide all the relevant intelligence to our policymakers.
    Senator King. Thank you.
    Two final questions. Admiral Rogers, the reason I was late 
this morning, we had a very informative hearing in Armed 
Services on cyber with Jim Clapper and Admiral Stavridis and 
General Hayden. The upshot of that hearing was that we still 
don't have a doctrine. We still don't have a policy. We still 
don't really fully understand--you would concur, I assume, that 
cyber's one of the most serious threats we face?
    Admiral Rogers. Yes, sir.
    Senator King. And do we need to have a policy and a 
deterrent policy and something further than what we have now, 
which is kind of an ad hoc response to events?
    Admiral Rogers. Right, it tends to be a case-by-case basis. 
Yes, sir, I agree. And we spoke about that when I testified 
before the SASC last week, as a matter of fact.
    Senator King. And Senator McCain said what's the 
impediment? Why can't we get there? Is it the structure of our 
government? We've got too many people thinking about this? What 
is it going to take to get us to the point of having a doctrine 
that will guide us in this incredibly important era?
    We are seeing the notion of warfare change before our eyes.
    Admiral Rogers. Sir, I don't have any easy answer for you. 
My role in life, not speaking now as the Director of NSA, but 
as the commander of the United States Cyber Commander, is to be 
operational commander. So I don't develop policy. I play a role 
on the doctrine side, trying to provide an operational 
perspective.
    Senator King. Well, I hope from your position, though, you 
would be----
    Admiral Rogers. Oh, yes, sir.
    Senator King [continuing]. Telling the Administration and 
everyone you can think of, because----
    Admiral Rogers. Yes, sir.
    Senator King [continuing]. I do not want to go home to 
Maine and say, well, we talked a lot about this but we didn't 
do anything, and when the electric system went down, you know, 
we might've been able to prevent it.
    Admiral Rogers. Yes, sir.
    Senator King. Director Pompeo, a final question. Do you 
think that Russian activity in the 2016 election was a one-off?
    Director Pompeo. No, sir.
    Senator King. This is a continuing threat, is it not?
    Director Pompeo. Yes, sir.
    Senator King. And things that they learned in this election 
they're going to apply in--in 2018, 2020, and beyond?
    Director Pompeo. Yes, sir. And I hope we learn from it as 
well and we'll be able to more effectively defeat it.
    Senator King. And I believe that's why the work of this 
Committee and others is so important, because we've got to 
understand what they did, how they did it so that we can deal 
with it in the future. Would you agree?
    Director Pompeo. Yes, Senator, I would.
    Senator King. Thank you very much.
    Director Coats. Senator King, if I could just add to that. 
I think making this as transparent as possible, not only to our 
own public, but throughout democratic nations that are facing 
this threat. The more we inform our people of what the Russians 
are trying to do and how they're trying to impact our thinking 
and our decisions relative to how we want to be governed and 
what kind of democratic institutions that we want to preserve, 
the better.
    So, my hope is the Russians have overstepped here to the 
point where people will say we absolutely have to do something 
about it and we have to put deterrent efforts in place as well 
as potentially offensive efforts.
    Senator King. Well, I think your point about open hearings 
and education is incredibly important. You and I were in the 
Ukraine and Poland just about a year ago and what they told us 
over there was that the best defense--they can't shut down 
their TV networks, they can't turn off the internet. The best 
defense is if the public knows what's happening and they say, 
oh, it's just the Russians again. And we have to reach that 
level of knowledge in this country. So I completely agree and 
hope that as much of our work as possible can be done in open 
hearing.
    Thank you, Mr. Chairman.
    Senator Risch. Thank you, Senator King.
    Gentlemen, thank you so much. Thank you all for your 
service. Thank you to all the men and women of all 17 agencies 
for the incredible service they provide to the people of the 
United States, keeping them safe, doing things that most people 
in America will never know nor be able to fully appreciate.
    Mr. McCabe, a special thank you for stepping up to the 
battlefield promotion and representing your agency quite well 
here.
    This part of the hearing will be adjourned. And gentlemen, 
you have about an hour and six minutes and we'll see at the 
other room. Thank you. Meeting's adjourned.
    [Whereupon, at 12:24 p.m., the hearing was adjourned.]

                         Supplemental Material
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         
                         


  

                                  <all>
</pre></body></html>
